<html>
<title> - EMPTY HOOKS: THE NATIONAL OCEAN POLICY IS THE LATEST THREAT TO ACCESS FOR RECREATIONAL AND COMMERCIAL FISHERMEN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                       EMPTY HOOKS: THE NATIONAL

                          OCEAN POLICY IS THE

                        LATEST THREAT TO ACCESS

                         FOR RECREATIONAL AND

                         COMMERCIAL FISHERMEN

=======================================================================


                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,

                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, March 22, 2012

                               __________

                           Serial No. 112-103

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
73-489                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
    GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democratic Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 22, 2012.........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands...............     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Gibson, Terry, Principle, North Swell Media, LLC.............    16
        Prepared statement of....................................    18
    LeBlanc, Justin, Federal Representative, United Catcher Boats    26
        Prepared statement of....................................    28
    Mannina, George J., Jr., Partner, Nossaman, LLC..............    21
        Prepared statement of....................................    22
    Zales, Captain Robert F., II, President, National Association 
      of Charterboat Operators...................................     6
        Prepared statement of....................................     8
    Zurn, Gary, Senior Vice President Marketing, Big Rock Sports, 
      LLC........................................................    10
        Prepared statement of....................................    12

Additional materials supplied:
    Longton, Aaron, F/V Goldeneye, Port Orford, Oregon, Statement 
      submitted for the record...................................    53
    Shinnecock Indian Nation, Statement submitted for the record.    54



 OVERSIGHT HEARING ON ``EMPTY HOOKS: THE NATIONAL OCEAN POLICY IS THE 
  LATEST THREAT TO ACCESS FOR RECREATIONAL AND COMMERCIAL FISHERMEN.''

                              ----------                              


                        Thursday, March 22, 2012

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:30 a.m., in 
Room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Wittman, Duncan, 
Southerland, Runyan, Sablan, Faleomavaega, Bordallo, and 
Markey.
    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum. Good morning. Today 
the Subcommittee on Fisheries, Wildlife, Oceans and Insular 
Affairs will conduct an oversight hearing titled, ``Empty 
Hooks: The National Ocean Policy is the Latest Threat to Access 
for Recreational and Commercial Fishermen.''
    Under the Committee Rule 4(f), opening statements are 
limited to the Chairman and Ranking Member of the Subcommittee, 
so that we can hear from our witnesses more quickly. However, I 
ask unanimous consent to include any other Members' opening 
statements in the hearing record, if submitted to the Clerk by 
close of business today.
    [No response.]
    Dr. Fleming. Hearing no objection, so ordered.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. I would like to welcome our witnesses and 
thank them for coming to Washington to present their testimony. 
As many of you are aware, coastal communities are feeling the 
pain of tough economic times, and fishermen are having a hard 
time making ends meet. Both recreational and commercial 
fishermen are seeing their harvest levels reduced, the areas 
available to them diminished, and the cost of doing business 
increased.
    This Subcommittee has heard loud and clear from many parts 
of the country that commercial and recreational fishing are 
being restricted due to inadequate or old data. While Congress 
has required that science should be underpinning of management 
decisions, this Subcommittee has heard testimony that layer 
upon layer of precaution are being included in the scientific 
calculations to set harvest levels. This overly precautionary 
level of management is affecting the economies of our coastal 
communities.
    In addition to inadequate data, fishermen are seeing their 
access to fishing grounds restricted. Efforts to create marine-
protected areas are growing even as questions about their 
effectiveness are being raised. At an earlier hearing, we heard 
that efforts such as the California Marine Life Protection Act 
were disadvantaging fishermen, while increasing the cost of 
management and enforcement, and were being imposed with little, 
if any, input from fishermen.
    Currently, only 272 out of the 556 national wildlife 
refuges are open to recreational fishing. And unless there are 
special circumstances, all of these refuges are closed to 
commercial fisheries. In the past, this was not much of a 
concern, because many--not many refuges extended into the 
marine environment. However, as more refuges and marine 
monuments are created or restrictions implemented, this lack of 
basic access is disturbing.
    In addition, I understand the National Park Service is now 
undertaking a policy to restrict recreational fishing access to 
national parks restricting fishermen in one park at a time. 
And, at the same time that scientists are recognizing the 
importance of man-made structures to rebuilding the red snapper 
population in the Gulf of Mexico, the Department of the 
Interior is pushing to remove some of these same structures at 
an expedited rate without regard to the effect on fisheries.
    And to make matters worse, a few years ago the 
Environmental Protection Agency proposed regulating rainwater 
that comes off the decks of fishing vessels. Without 
congressional intervention, this would have already have been 
implemented, and thousands of fishermen would have been 
required to either collect rainwater or apply for discharge 
permits from the EPA.
    With all this as a backdrop, the Obama Administration has 
proposed a National Ocean Policy that will add new regulations 
and implement closures that will affect fishermen, as well as 
inland activities. Of the nine national priority objectives in 
the National Ocean Policy, four call for closed areas or 
restrictions on activities, including fishing. To make matters 
worse, the policy requires that all of these decisions be made 
by Federal officials behind closed doors.
    There is no opportunity for direct stakeholder 
participation in these decisions. At a time of tight budgets, I 
believe this new policy is draining resources away from 
existing missions and duties of a number of Federal agencies. 
Yet this administration either cannot or will not answer 
questions about where the funding for this far-reaching 
national zoning effort is coming from. This Subcommittee will 
examine these funding questions, and will continue to raise 
concerns with the National Ocean Policy and its objectives.
    I appreciate the witnesses being here today, and I look 
forward to your testimony. I now recognize our Ranking Member, 
Mr. Sablan, for any statement he would like to make.
    [The prepared statement of Dr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    I would like to welcome our witnesses to today's hearing titled 
``Empty Hooks: The National Ocean Policy Is The Latest Threat to Access 
for Recreational and Commercial Fishermen''.
    As many of you are aware, coastal communities are feeling the pain 
of tough economic times and fishermen are having a hard time making 
ends meet. Both recreational and commercial fishermen are seeing their 
harvest levels reduced, the areas available to them diminished, and the 
cost of doing business increased.
    This Subcommittee has heard loud and clear from many parts of the 
country that commercial and recreational fishing are being restricted 
due to inadequate or old data. While Congress has required that science 
should be the underpinning of management decisions, this Subcommittee 
has heard testimony that layer upon layer of precaution are being 
included in the scientific calculations to set harvest levels. This 
overly precautionary level of management is affecting the economies of 
our coastal communities.
    In addition to inadequate data, fishermen are seeing their access 
to fishing grounds restricted. Efforts to create Marine Protected Areas 
are growing even as questions about their effectiveness are being 
raised. At an earlier hearing, we heard that efforts such as the 
California Marine Life Protection Act were disadvantaging fishermen 
while increasing the costs of management and enforcement--and were 
being imposed with little if any input from the fishermen. Currently, 
only 272 out of the 556 National Wildlife Refuges are open to 
recreational fishing and, unless there are special circumstance, all of 
these Refuges are closed to commercial fisheries. In the past, this was 
not as much of a concern because not many Refuges extended into the 
marine environment; however, as more Refuges and Maine Monuments are 
created or restrictions implemented, this lack of basic access is 
disturbing. In addition, I understand the National Park Service is now 
undertaking a policy to restrict recreational fishing access to 
National Park's--restricting fishermen in one Park at a time.
    And at the same time that scientists are recognizing the importance 
of man-made structures to rebuilding the red snapper population in the 
Gulf of Mexico, the Department of the Interior is pushing to remove 
some of these same structures at an expedited rate without regard to 
the effect on fisheries. And to make matters worse, a few years ago the 
Environmental Protection Agency proposed regulating rainwater that 
comes off of the decks of fishing vessels. Without Congressional 
intervention, this would have already been implemented and thousands of 
fishermen would have been required to either collect rainwater or apply 
for discharge permits from the EPA.
    With all of this as a backdrop, the Obama Administration has 
proposed a National Ocean Policy that will add new regulations and 
implement closures that will affect fishermen as well as inland 
activities. Of the nine National Priority Objectives in the National 
Ocean Policy, four call for closed areas or restrictions on 
activities--including fishing. To make matters worse, the Policy 
requires that all of these decisions be made by federal officials 
behind closed doors. There is no opportunity for direct stakeholder 
participation in these decisions.
    At a time of tight budgets, I believe this new Policy is draining 
resources away from existing missions and duties of a number of federal 
agencies. Yet this Administration either cannot, or will not, answer 
questions about where the funding for this far-reaching national zoning 
effort is coming from.
    This Subcommittee will examine these funding questions and will 
continue to raise concerns with the National Ocean Policy and its 
objectives.
    I appreciate the witnesses being here today and I look forward to 
your testimony.
                                 ______
                                 

 STATEMENT OF THE HON. GREGORIO SABLAN, A DELEGATE IN CONGRESS 
               FROM THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Chairman Fleming, and good 
morning, everyone.
    In the Northern Mariana Islands, we are fortunate to have 
the beautiful coral reefs of Laolao Bay. With thousands of 
visitors each year, 47 percent of which are recreational 
fishermen, Laolao is a vital component to Saipan's tourism 
industry. Some of these reefs are valued at over $10 million 
per square kilometer. However, illegal burning of forests and 
the subsequent erosion have caused water quality to decline, 
which has reduced the number of dominant coral species in the 
area from 15 to 5.
    Through a stakeholder-driven initiative, our local 
government and citizens worked with Federal agencies to develop 
an ecosystem-based management strategy. These local and Federal 
partnerships help fund and implement sustainable practices on 
land that will improve water quality, create over 100 jobs, and 
secure the health of our coral reef ecosystems, which are vital 
to our economy, including the recreational fishing industry.
    The President's National Ocean Policy will facilitate this 
type of comprehensive ecosystem-based management that is 
critical to the health of our oceans and the fish populations 
that sustain the livelihood of so many people in this room. The 
United States and Territories have exclusive economic 
jurisdiction over approximately 4.5 million square miles of 
ocean, which is larger than the total combined land area of all 
the States and Territories.
    Our coastal counties, which make up only 18 percent of the 
country's land area, are home to roughly 36 percent of our 
Nation's population. That is 108 million--over 108 million 
people. And these numbers are steadily increasing. Growing uses 
within our ocean and coastal areas are placing significant 
pressures on our natural resources.
    The President, utilizing input from thousands of local, 
State, Tribal, Territorial, and stakeholders, have provided a 
unifying structure to develop management strategies for our 
oceans, coasts, and Great Lakes. This is not a Federally 
mandated process. This does not create more regulations. But it 
does offer tools for regions to engage stakeholders in a 
scientifically informed, comprehensive ocean-planning process. 
Moreover, the implementation plan is still in draft form and 
open for public comment. And, therefore, it has not been 
finalized.
    Fourteen States and Territories have already incorporated 
stakeholder-driven, comprehensive ocean planning into their 
management plans. Efficient interaction between State and 
Federal agencies is not only critical to the implementations of 
this plan, but necessary during these austere financial times. 
The National Ocean Policy will ensure these agencies are 
working transparently to facilitate the work of state and 
regional plans.
    Personally, our ocean economy supports over 2.8 million 
jobs, including tourism, recreation, and fishing sectors. 
Commercial fishing alone contributes over $70 billion annually 
to our Nation's economy, while over 25 million Americans fish 
recreationally every year. It is critical that fishermen are 
involved in the earliest communications of the ocean-planning 
process. The National Ocean Policy provides the framework to 
bring fishermen into the planning process with mechanisms to 
establish any number of planning advisory boards, in addition 
to the inclusion of fisheries management councils on the 
regional planning bodies.
    Let us move forward with the planning process where 
conflicts in ocean use can be minimized, and where healthy 
ocean ecosystems support vibrant, traditional, and new ocean 
uses alike. And I join the Chairman in wanting to hear what 
everyone has to say in today's hearing. Thank you very much for 
joining us.
    [The prepared statement of Mr. Sablan follows:]

  Statement of The Honorable Gregorio Kilili Camacho Sablan, Ranking 
Member, Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Thank you, Chairman Flemming.
    In the Northern Marianas Islands, we are fortunate to have the 
beautiful coral reefs of Laolao Bay. With thousands of visitors each 
year, 47% of which are recreational fishermen, Laolao is a vital 
component to Saipan's tourism industry. Some of these reefs are valued 
at over $10 million per square kilometer. However, illegal burning of 
forests and the subsequent erosion have caused water quality to 
decline, which has reduced the number of dominant coral species in the 
area from 15 to 5. Through a stakeholder-driven initiative, our local 
government and citizens worked with federal agencies to develop an 
ecosystem based management strategy.
    These local and federal partnerships helped fund and implement 
sustainable practices on land that will improve water quality, create 
over 100 jobs and secure the health of our coral reef ecosystems, which 
are vital to our economy, including the recreational fishing industry.
    The President's National Ocean Policy will facilitate this type of 
comprehensive ecosystem based management that is critical to the health 
of our oceans and the fish populations that sustain the livelihood of 
so many people in this room.
    The United States and territories have exclusive economic 
jurisdiction over approximately 4.5 million square miles of ocean, 
which is larger than the total combined land area of all the states and 
territories. Our coastal counties, which make up only 18% of the 
country's land area, are home to 108.3 million people--roughly 36% of 
our nation's population--and these numbers are steadily increasing. 
Growing uses within our ocean and coastal areas are placing significant 
pressures on our natural resources.
    The President, utilizing input from thousands of local, state, 
tribal, territorial and stakeholders, has provided a unifying structure 
to develop management strategies for our oceans, coasts, and Great 
Lakes. This is not a federally mandated process; this does not create 
new regulations; but, it does offer tools for regions to engage 
stakeholders in a scientifically informed, comprehensive ocean planning 
process. Furthermore, the Implementation Plan is still in draft form 
and open for public comment and therefore has not been finalized.
    Fourteen states and territories have already incorporated 
stakeholder-driven comprehensive ocean planning into their management 
plans. Efficient interaction between state and federal agencies is not 
only critical to the implementation of these plans, but necessary 
during these austere financial times. The National Ocean Policy will 
ensure these agencies are working transparently to facilitate the work 
of state and regional plans.
    Currently, our ocean economy supports over 2.8 million jobs, 
including tourism, recreation, and fishing sectors. Commercial fishing 
alone contributes over $70 billion annually to our nation's economy, 
while over 25 million Americans fish recreationally every year. It is 
critical that fishermen are involved in the earliest communications of 
the ocean planning process. The National Ocean Policy provides a 
framework to bring fishermen into the planning process with mechanisms 
to establish any number of planning advisory boards in addition to the 
inclusion of Fisheries Management Councils on the Regional Planning 
Bodies. Let's move forward with a planning process where conflicts in 
ocean use can be minimized and where healthy ocean ecosystems support 
vibrant traditional and new ocean uses alike.
                                 ______
                                 
    Dr. Fleming. I thank the Ranking Member. Now we will turn 
to our panel.
    First of all, like all witnesses, your written testimony 
will appear in full in the hearing record, so I ask that you 
keep your oral statements to five minutes, as outlined in our 
invitation letter to you, and under Committee Rule 4(a). Our 
microphones are not automatic, so please push the button when 
it is your time to talk, and make sure it is in front of you, 
because your voice cannot be picked up unless it is reasonably 
close to your mouth.
    Also, our timing lights, I will explain those briefly. You 
have five minutes to speak. You will be, in the first four 
minutes, under green light, then yellow for the last minute. 
And when it turns red, we ask that you go ahead and conclude 
your remarks.
    Now I would like to ask unanimous consent to recognize Mr. 
Southerland to introduce one of our witnesses today.
    [No response.]
    Dr. Fleming. Without objection.
    Mr. Southerland. Thank you, Mr. Chairman. It is great to 
have the wonderful panel we have here today. And one of our 
panelists today is a gentleman who is extremely important to 
our fishing efforts in our neck of the woods. I live in Panama 
City, Florida. And so today we are honored to have Captain Bob 
Zales.
    Captain Zales has been involved in fisheries since he 
entered the business with his family, a charter fishing 
business, back in our home district of Panama City, Florida, in 
1966, and has been involved in fishing for over 47 years. In 
1986 he began his interest in fishery management, and working 
to represent his fellow fishermen, providing expert testimony 
and serving on various advisory panels for local, State, and 
Federal agencies, working to ensure that common sense is 
applied to the management of our natural resources.
    He has been active in local and national charterboat 
associations, and has been a member of the National Association 
of Charterboat Operators since 1991, a board member since 1997, 
and president since 1999. Captain Zales has vast knowledge of 
the many regulatory agencies and the regulations affecting the 
charter-for-hire industry. He is recognized nationally as an 
expert in his field. It is great to have Captain Zales here. 
And I welcome him to the panel today. Thank you. Mr. Chair, I 
yield back.
    Dr. Fleming. I thank the gentleman from Florida. Next I 
would like to introduce Mr. Gary Zurn, Senior Vice President, 
Marketing, Big Rock Sports, LLC; Mr. Terry Gibson, Principal, 
North Swell Media, LLC; Mr. George J. Mannina--am I saying that 
correctly? A junior partner, Nossaman, LLC. And Mr. Justin 
LeBlanc, Federal Representative, United Charter Boats. Catcher? 
Oh, OK. We had a typo. United Catcher Boats.
    OK. Captain Zales, you may begin. Five minutes are yours, 
sir.

         STATEMENT OF ROBERT F. ZALES, II, PRESIDENT, 
         NATIONAL ASSOCIATION OF CHARTERBOAT OPERATORS

    Mr. Zales. Thank you. And thank you, Steve, for that kind 
introduction. Chairman Fleming, Ranking Member Sablan, and 
members of the Subcommittee, my name is Robert F. Zales, II, 
and I am appearing today on behalf of the National Association 
of Charterboat Operators. I wish to thank you, my 
representative, Steve Southerland, and the other members of the 
Committee for your kind invitation to present testimony.
    NACO is a non-profit association representing charterboat 
owners and operators across the United States, including the 
Great Lakes. I also serve on the board of several other 
recreational fishing associations, as well as the National 
Ocean Policy Coalition. I have been involved in fishing for 
over 47 years, with over 21 years of that time involved with 
local, state, and Federal fishery management; providing expert 
testimony; serving on a host of advisory panels; and working to 
ensure that reason and common sense are applied to the 
management of our natural resources.
    One stroke of a pen has expanded to a proposed National 
Ocean Policy Implementation Plan that will create regional 
planning bodies who will adopt a comprehensive national 
ecosystem-based management principle, implement coastal and 
marine spatial planning and management, and a host of other 
management objectives. All these proposals are already being 
researched and, in some cases, proposed under the Magnuson-
Stevens Fishery Conservation and Management Act and other 
Federal management efforts. Apparently, Mr. Chairman, you and 
your colleagues are not necessary to the proper management and 
care of our natural marine and land-based resources, as 
Congress has been left totally out of the NOP process.
    According to NOAA/NMFS, recreational salt water fishing, 
the commercial fishing industry, and seafood retailers combine 
to contribute over $208 billion, and provided over 1,811,000 
jobs in 2009. This impact was derived on less than 20 percent 
of the seafood provided locally, as over 80 percent of our 
nation's seafood is imported.
    The current NOP process suggests that the nation's 
stakeholders have been actively involved and able to provide 
input. This is blatantly untrue. The fast-tracking underground, 
lack of adequate public notice, and haphazard manner where 
vital stakeholders are left out by the administration is clear 
indication they want this policy to be fully implemented before 
anyone is aware of the real impacts of the proposed policy.
    Under the CMSP process, there are nine regional planning 
bodies proposed that will include membership of Federal, State, 
and Tribal representatives. No fishing representatives are to 
be included. We already have eight Regional Fishery Management 
Councils and the NOAA/NMFS, along with EPA, the United States 
Coast Guard, Fish and Wildlife Service, Bureau of Ocean Energy 
Management, 300 State fishery commissions, coastal State 
resource management agencies, and a host of others providing 
management of our resources. Do we need another layer of 
unaccountable Federal bureaucrats costing taxpayers millions of 
dollars on top of all these to provide management?
    Few Federal legislators know where the funding for the NOP 
comes from now. Who will control the funding and oversight in 
the future? No fishing seasons, overly restrictive bag limits 
and quotas, closed areas to boating and fishing, the Endangered 
Species Act, Clean Water Act, EPA engine emission regulations, 
marine-protected areas, marine mammal interactions, gear 
restrictions, U.S. Coast Guard regulations that include a host 
of vessel safety and manning requirements, medical review 
process, navigation restrictions, the FCC radio license and 
requirements and more adversely regulating fishermen.
    The NOP process will create new and expanded regulatory 
requirements creating more regulatory burdens and expanding 
costs to our businesses. According to information provided at a 
recent hearing, Representative Southerland found, in the final 
recommendations of the Interagency Ocean Policy Task Force July 
19, 2010, on page 30 it states, ``The plan would be adapted to 
allow for more modification and addition of new actions based 
on new information and changing conditions.'' Their effective 
implementation would also require clear and easily understood 
requirements and regulations where appropriate, that include 
enforcement as a critical component.
    While several lead agency heads have stated the NOP has no 
regulatory authority, the NOP will be adding new and expanded 
regulations on already-over-regulated industries and 
activities. Fishing activity and boating are now at an all-time 
low. Allowing the NOP to continue without congressional 
oversight will continue to reduce the fishing and boating 
activity which will result in lost jobs, lost wages, and lost 
taxes.
    The NOP does nothing but add new layers of unaccountable 
Federal Government employees, while doing nothing to enhance 
our economy or our resources. Everything in the NOP process is 
already being implemented, proposed, or thought of. In 
addition, the NOP continues the strangulation of our offshore 
oil and gas industries by further restricting the exploration, 
mining, and production of these resources. In the Gulf of 
Mexico, the expanded effort to remove non-productive oil and 
gas platforms that have become essential fish habitat is a 
growing problem, when the NOAA/NMFS requires sustainable 
fisheries. How do you sustain a resource without habitat?
    In lieu of the NOP, a government agency coordinator could 
ensure all agencies work together so projects, permitting, 
regulatory actions, and continued enhancement of our marine and 
land resources are coordinated. This coordination of agencies 
should reduce the burdens placed on the fishing and other 
industries. In these difficult economic times, this would save 
taxpayers countless dollars, and would increase regulatory 
burdens and provide a real common-sense approach to making 
government more efficient and less costly.
    Mr. Chairman, this concludes my testimony. Thank you.
    [The prepared statement of Mr. Zales follows:]

          Statement of Capt. Robert F. Zales, Ii, President, 
             National Association of Charterboat Operators

    Chairman Fleming, Ranking Member Sablan, and Members of the 
SubCommittee, my name is Robert F. Zales, II and I am appearing today 
on behalf of the National Association of Charterboat Operators (NACO). 
I wish to thank you; my Representative Steve Southerland and the other 
Members of the Committee for your kind invitation to present testimony 
on the Threat to Access for Recreational and Commercial Fishermen by 
the National Ocean Policy (NOP).
    NACO is a non-profit 501 (c) (6) association representing charter 
boat owners and operators across the United States including the Great 
Lakes. I also serve on the Board of several other recreational fishing 
associations and am involved with a national coalition of recreational 
for hire, private recreational, and commercial fishing associations as 
well as the National Ocean Policy Coalition. I have been involved in 
fishing for over 47 years with over 21 years of that time involved with 
local, state, and federal fishery management providing expert 
testimony, serving on a host of advisory panels, and working to ensure 
that reason and common sense are applied to the management of our 
natural resources.
    On July 19, 2010 President Obama signed and executed Presidential 
Executive Order 13547 creating the National Ocean Policy and resulting 
National Ocean Council. Less than two years later, this one stroke of a 
pen has expanded to a proposed National Ocean Policy Implementation 
Plan that will create Regional Planning Bodies who will adopt a 
comprehensive National ecosystem based management principal, implement 
comprehensive, integrated, ecosystem based coastal and marine spatial 
planning and management, and a host of other management objectives. All 
of these proposals are already being researched and in some cases 
proposed under the Magnuson-Stevens Fishery Conservation and Management 
Act and other federal management efforts. Apparently, Mr. Chairman, you 
and your colleagues are not necessary to the proper management and care 
of our natural marine and land based resources as Congress has been 
left totally out of the NOP process.
    Charter, commercial, and saltwater recreational fishing is 
extremely important to the United States, both economically and 
socially. According to the NOAA publication Fisheries Economics of the 
United States for 2009 Recreational Saltwater Fishing produced sales 
impacts from angling and durable expenditures totaling $50 BILLION and 
value added impacts of $23 BILLION while providing over 327,000 JOBS in 
2009. In addition the Commercial Fishing industry provided over 1 
MILLION JOBS, $116 BILLION in sales and $32 BILLION in income impacts. 
Seafood Retailers added another 484,000 JOBS and contributed another 
$10 BILLION to the nations' economy. This impact is derived on less 
than 20% of the seafood provided locally as over 80% of our Nation's 
seafood is imported. Just in my small coastal community of Panama City, 
Florida, according to the local Tourist Development Council, 15% of 
Tourism Dollars comes from saltwater recreational fishing. All of these 
industries depend on our healthy and resilient resources and must have 
flexibility in management in order to survive.
    The current NOP process, has from day one, suggested that the 
Nation's stakeholders have been actively involved and able to provide 
input. The true nature of the activity shows this is blatantly untrue. 
The fast tracking underground, lack of adequate public notice, and 
haphazard manner where vital stakeholders are left out by the 
administration is clear indication they want this policy to be fully 
implemented before anyone is aware of the real impacts of the proposed 
policy. One has to wonder, if a policy is so great then why has 
Congress been left out of the process and why do the citizens of this 
country know so little?
    Under the Coastal and Marine Spatial Planning process there are 
nine (9) Regional Planning Bodies proposed that will include membership 
of Federal, State, and Tribal representatives, no fishing 
representatives are to be included. How does this process include 
Stakeholders such as Recreational and Commercial fishermen who may be 
affected the most? We already have eight (8) Regional Fishery 
Management Councils and the agencies of NOAA/NMFS along with EPA, the 
United States Coast Guard, the Fish and Wildlife Service, the Bureau of 
Ocean Energy Management, three (3) Interstate Fishery Commissions, 
coastal State Resource Management Agencies, and a host of others 
providing management of our resources. Why do we need another 
bureaucratic entity costing taxpayers millions of dollars on top of all 
of these to provide more management? Few federal legislators know where 
the funding for the NOP comes from now, who will control the funding 
and oversight in the future?
    Recreational and Commercial Fishermen are currently over regulated 
and negatively impacted in every arena. No fishing seasons, overly 
restrictive bag limits and quotas, closed areas to boating and fishing, 
the Endangered Species Act, the Clean Water Act, EPA Engine Emission 
regulations, Marine Protected Areas, Marine Mammal Interactions, gear 
restrictions, U. S. Coast Guard regulations that include a host of 
vessel safety requirements, specific manning requirements, life saving 
requirements, licensing, drug and alcohol testing, medical review 
process, navigation restrictions, FCC radio licensing and requirements, 
and more. Every agency and every requirement costs fishermen and our 
communities dollars.
    The Fishing Industry (recreational and commercial) cannot absorb 
any more regulatory burden. Many fishermen have left fishing because 
they have simply been regulated out of business. The costs and 
regulatory burdens have driven private recreational fishermen to find 
other forms of recreation. They have forced the recreational for-hire 
owner out of business because the consumer is unwilling to continue to 
pay more for the government requirements as the costs of regulations 
cannot be passed on. Commercial fishermen are being forced out of 
business because the profit margins are not sustainable. All of this 
also impacts the support businesses such as tackle shops, boat 
builders, and seafood dealers.
    The NOP process has the potential and is likely to create new and 
expanded regulatory requirements in addition to those we have, creating 
more regulatory burdens and expanding costs to our businesses. 
According to information provided at a recent hearing by Representative 
Southerland found in the Final Recommendations of the Interagency Ocean 
Policy Task Force, July 19, 2010 on page 30, it states ``The plans 
would be adaptive to allow for modification and addition of new actions 
based on new information or changing conditions. Their effective 
implementation would also require clear and easily understood 
requirements and regulations, where appropriate, that include 
enforcement as a critical component.'' While several lead agency heads 
have stated the NOP has no regulatory authority, it is clear that the 
NOP will be adding new and expanded regulations on already overly 
regulated industries and activities.
    Fishing activity and boating are at an all time low. Government 
requirements and expense keep growing and allowing the NOP to continue 
without Congressional oversight will only continue to reduce this 
fishing and boating activity which will result in lost JOBS, lost 
WAGES, and lost TAXES which will harm families and our communities. The 
NOP does nothing but add new layers of unaccountable federal government 
employees while doing nothing to enhance our economy or our resources. 
Everything the NOP proposes is already being implemented, proposed, or 
thought of.
    In addition the NOP continues the strangulation of our offshore oil 
and gas industries by further restricting exploration, mining, and 
production of these resources. This further hampers fishermen due to 
the ever increasing fuel costs. In the Gulf of Mexico the expanded 
effort to remove non productive oil and gas platforms that have become 
essential fish habitat is a growing problem when the NOAA/NMFS requires 
sustainable fisheries. How do you sustain a resource without habitat?
    In lieu of the NOP, a government agency coordinator could ensure 
all agencies work together so projects, permitting, regulatory actions, 
and continued enhancement of our marine and land resources are 
coordinated. This coordination of agencies should reduce the burdens 
placed on the fishing and other industries. In these difficult economic 
times, this would save tax payers countless dollars, would not increase 
regulatory burdens, and provide a real common sense approach to making 
government more efficient and less costly.
    Mr. Chairman, this concludes my testimony. Again, I truly 
appreciate the invitation and opportunity to provide you and the 
committee with this information. I will be pleased to respond to any 
questions.
                                 ______
                                 
    Dr. Fleming. Thank you, Captain Zales. Thank you for your 
testimony.
    And next up is Mr. Zurn.
    You are now recognized, sir, for five minutes.

 STATEMENT OF GARY ZURN, SENIOR VICE PRESIDENT MARKETING, BIG 
                        ROCK SPORTS, LLC

    Mr. Zurn. Good morning, Mr. Chairman and members of the 
Subcommittee. Thank you for the opportunity to speak with you 
today.
    My name is Gary Zurn. I am Senior Vice President and part 
owner of Big Rock Sports, the wholesale distributor of fishing, 
marine, camping, and shooting sports products. Our offices are 
headquartered in Newport, North Carolina, with five 
distribution facilities across the U.S. and three in Canada. I 
am here today not only to represent my company and our 15,000 
outdoor sporting goods retailers, but also the millions of 
recreation anglers across the Nation who are facing 
increasingly complex and restrictive fishing regulations, 
rising gas prices, and unprecedented new threats to fishing 
access, particularly in our marine waters.
    Recreational fishing generates a powerful economic engine 
that provides employment for approximately one million 
Americans, and the bulk of the funding for aquatic resources 
management and conservation. Anglers and businesses depend on 
healthy and abundant fisheries. But as the Nation strives to 
end over-fishing and rebuild depleted fish stocks, we have 
often struggled to balance resource conservation with 
preserving the economic and social values of recreational 
fishing.
    Recent changes in 1996 and 2006 to our Federal fisheries 
management law, the Magnuson-Stevens Act, have made significant 
strides in rebuilding fisheries. However, these improvements 
have come with considerable sacrifices made by fishermen. Many 
provisions of the law are predicated on timely and quality 
scientific fisheries data, which is sorely lacking across NOAA 
Fisheries. This overall lack of quality data, combined with 
strict legal requirements to end over-fishing and set catch 
limits on all stocks under Federal management, has resulted in 
decisions that have taken anglers off the water, cost jobs, and 
degraded the public's trust in NOAA Fisheries.
    Another fisheries management approach to place areas of 
ocean off-limits to all fishing has steadily gained more 
attention. This concept, commonly known as marine reserves, 
marine-protected areas, or MPAs, is now often proposed as a 
catch-all solution to any aquatic resources management issues, 
without regard for the negative economic and jobs impact these 
restrictions will have.
    California is finalizing a state-wide MPA effort which is 
not needed, which it cannot pay for, that is placing 15 to 20 
percent of the State's most productive coastal waters off 
limits to fishing, through a process called the Marine Life 
Protection Act Initiative.
    On the other side of the country, officials at Biscayne 
National Park are proposing to close a significant portion of 
South Florida's most popular and productive shallow-water reefs 
to all fishing, despite strong public opposition and the lack 
of scientific evidence. Fisheries and public waters are being 
closed at an alarming rate, and this has made the recreational 
fishing community increasingly sensitive to potential threats 
to our sport. Rather than providing an opportunity to expand 
and promote fishing access to our oceans, anglers cannot help 
but view the National Ocean Policy, particularly coastal and 
marine spatial planning, as another effort to place areas off 
limits to the public.
    In contrast, the administration's other major resource 
conservation initiative, America's Great Outdoors, is 
increasing and improving recreational access, one of the 
primary goals. And our community has strongly embraced this 
initiative. The National Ocean Policy, however, has created 
considerable concern, primarily due to its treatment of 
recreational uses as one of many ocean sectors for which 
planning activities will occur. And the policy's vaguely 
defined ideas of protection and precaution open a pathway to 
closed areas of recreational fishing.
    In several States that have undertaken coastal and marine 
spatial-planning process, including Massachusetts, Rhode 
Island, and Washington, existing authority of fisheries 
management agencies was recognized from the outset, and 
potential impacts on fishing were required to be minimized. 
This went a long way toward alleviating concerns that fishing 
activities would be unnecessarily restricted by spatial 
planning bodies which have little, if any, expertise in 
fisheries management.
    To date, the recreational fishing community's concerns have 
largely gone unheard, despite numerous letters and discussions 
with administrative officials. It is our hope that the 
administration will assure that ocean planning will not result 
in more fishing closures, but follow the lead of States like 
Massachusetts, that elevated the status of recreational 
fishing. We do not want to see the administration follow the 
path California has taken.
    Thank you for your time, and I am happy to answer any 
questions this committee may have.
    [The prepared statement of Mr. Zurn follows:]

       Statement of Gary Zurn, Senior Vice President Marketing, 
                          Big Rock Sports, LLC

    Good morning, Mr. Chairman. Thank you for this opportunity to speak 
before this subcommittee today. My name is Gary Zurn. I'm senior vice-
president and part owner of Big Rock Sports, a wholesale distributor of 
fishing, marine, camping and shooting sports products. Our offices are 
located in Newport, NC along the Crystal Coast on the southernmost part 
of the outer banks. Along with my wife Ruth and son Graig we have lived 
there for the past 19 years, and have enjoyed our opportunities to fish 
recreationally, both offshore and inshore along the North Carolina 
coast.
    My company, Big Rock Sports, has five distribution facilities 
across the United States, and 3 in Canada. Our U.S. locations include 
Hamlet, NC; Sauk Rapids, MN; Billings, MT; Clackamas, OR; and Fresno, 
CA. At Big Rock Sports our tagline is ``Outfitting the North American 
Sportsman''. We are international in the scope of our business, 
regional in our product assortments, and local in our business 
relationships. We currently service 15,000 outdoor sporting goods 
retailers, carry 110,000 unique products from over 1,200 manufacturers, 
and have a direct field sales force of 150 sales representatives across 
the US.
    Along with my involvement at Big Rock Sports, I also serve on the 
board of the American Sportfishing Association. In addition to being on 
the board, I serve as Chairman of its Government Affairs Saltwater 
subcommittee, and also serve on its KeepAmericaFishing advocacy 
committee. I'm here today to not only represent my company and our 
15,000 outdoor sporting goods retailers, but also the millions of 
recreational anglers across the nation who are facing increasingly 
complex and restrictive fishing regulations and unprecedented new 
threats to fishing access, particularly in our marine waters.
    Recreational fishing generates a powerful economic engine that, in 
addition to providing employment for approximately one million 
Americans, provides the bulk of funding for aquatic resources 
management and conservation. In 2006--the last year that NOAA Fisheries 
generated national estimates of effort and participation--24.7 million 
saltwater anglers took nearly 100 million recreational fishing trips 
(97.7 million). Through fishing-related expenditures, including food, 
lodging, fuel, bait, tackle, gear, boats, houses and vehicles, 
saltwater recreational anglers generated $92.2 billion in total sales.
    In addition to expenditures on trip costs and fishing equipment, 
anglers contribute a considerable amount to direct fisheries management 
at the state level. Across all states, recreational anglers contribute 
$621.5 million in license purchases and $329.8 million across just the 
coastal states (2010 estimates). The vast majority of this money 
returns directly to management and enhancement of recreational fishing. 
In addition to license sales, through the excise taxes on fishing 
equipment and fuel purchases, recreational anglers contribute $650 
million to state fishery management through the Sport Fish Restoration 
Program, also known as Wallop-Breaux.
    However, this traditional American pastime that provides the 
backbone for fisheries conservation and supports coastal economies 
across the nation is threatened like never before. As we strives to end 
overfishing and rebuild depleted fish stocks, all across the nation 
anglers are being required to change where and how they fish, and in 
many cases are facing fewer or diminished fishing opportunities. The 
implementation of new fisheries management approaches like marine 
protected areas, catch shares and annual catch limits has put anglers 
on guard like never before, and the Obama Administration's National 
Ocean Policy is yet another issue that anglers view as a potential 
threat to the future of fishing as we know it in this country. The 
rollout of the National Ocean Policy has created even greater 
uncertainty as anglers and recreational-fishing dependent businesses 
struggle to understand how recreational access will be treated in this 
complex policy. What the recreational fishing community sees in the 
National Ocean Policy is not improved science to drive better fisheries 
management or efforts to promote getting Americans out on the water; 
but rather more confusing bureaucracy and the serious potential that 
public waters will be placed off-limits based on poorly-defined ideas 
of protection and precaution.
    The stated vision of the National Ocean Policy is ``an America 
whose stewardship ensures that the ocean, our coasts, and the Great 
Lakes are healthy and resilient, safe and productive, and understood 
and treasured so as to promote the well-being, prosperity, and security 
of present and future generations.'' How could anyone be against that? 
As is often the case, however, the devil is in the details, and when 
the recreational fishing community looks into this policy we see the 
strong potential that our community will not be adequately recognized 
in this process of planning where and how uses can take place in the 
ocean. What the federal government is contemplating with Coastal and 
Marine Spatial Planning (CMSP) is not a new concept, as several states 
have already embarked on similar processes. We would like to see this 
national process follow the lead of Massachusetts, which gave special 
recognition to fishing and essentially prohibited these activities from 
being further regulated under CMSP, and not California, which ignored 
the recreational fishing community and has closed many of the state's 
prime fishing areas.
The Painful Progress of Federal Fisheries Management
    While our inland fisheries resources have been well managed by 
state fish and wildlife agencies for over a hundred years, saltwater 
fisheries management, particularly on the recreational side, is 
relatively new. As a result of decades of inattention despite 
increasing commercial and recreational fishing pressure, many marine 
fish stocks declined significantly during the 20th century, prompting 
serious reforms in our federal fisheries management law--the Magnuson-
Stevens Fishery Conservation and Management Act (MSA)--in 1996 and 
2006. New measures to end overfishing and rebuild overfished stocks 
have, in general, made significant strides. For example, according to 
NOAA Fisheries, the percentage of federally-managed stocks experiencing 
overfishing declined from 38 percent in 2000 to 20 percent in 2010.
    These improvements have not come without considerable sacrifices 
made by recreational and commercial fishermen, however, and the law as 
written is far from perfect. Many provisions of the law, including the 
requirement to set annual catch limits on all stocks under federal 
management, are predicated on up-to-date and quality scientific data on 
fisheries. NOAA Fisheries presently has 528 stocks of fish or complexes 
of stocks under management, but only has updated stock assessment data 
on 121 of the 528. In addition, angler harvest data, which is the basis 
for many fisheries management decisions, has being collected by the 
Marine Recreational Fishing Statistics Survey, which the National 
Research Council concluded was incapable of being used for any purpose.
    NOAA Fisheries has long operated under a system that moves slowly 
and has significant gaps in data collection, not to mention one that 
has paid little attention to the recreational sector. Good fisheries 
management can only take place with a solid foundation of science, and 
the 2006 reauthorization of MSA did not sufficiently acknowledge just 
how far behind NOAA Fisheries was, and still is, on collecting the data 
to lay this foundation. While every region of the country grapples with 
limited data to some extent, there is a significant disparity in how 
much data is collected across regions. For example, for the past few 
years, NOAA Fisheries has been conducting about 80 stock assessments 
per year in Alaska. At the same time, it has been assessing 15 stocks a 
year in the Gulf of Mexico, South Atlantic and Caribbean combined, and 
most of those assessments are for commercial shrimp stocks. For the 
sport fish that anglers pursue, NOAA Fisheries does about six 
assessments per year. The lack of stock assessment resources devoted to 
the southeastern U.S. has created major problems in the region, 
particularly recently as legal mandates that were predicated on 
adequate data collection must be met. Two recent decisions by NOAA 
Fisheries in the South Atlantic highlight the consequences of making 
management decisions based on poor data.
        <bullet>  After significant declines in the 1960s and 1970s, 
        red snapper abundance in the South Atlantic has steadily 
        increased over the last several decades, and most anglers will 
        tell you that they are now seeing more and larger red snapper 
        than ever before. However, a 2008 stock assessment of South 
        Atlantic red snapper--the first in ten years--showed that the 
        fishery was significantly overfished and undergoing 
        overfishing, although anglers had been managed throughout this 
        time under bag and size limits that were determined to be 
        sufficient by NOAA Fisheries. The new stock assessment 
        information not only triggered a closure of the red snapper 
        fishery which is still in effect, but almost led to a ban on 
        all bottom fishing in a 5,000 square mile area in the South 
        Atlantic.
        <bullet>  Speckled hind and Warsaw grouper are two little known 
        and rarely caught deepwater fish stocks in the snapper-grouper 
        complex. Stock assessments have never been conducted on either 
        stock, but recent catch data (the same data determined by the 
        National Research Council as being fatally flawed) indicate 
        that the average size and abundance of these species has 
        declined. Because they are part of a larger deepwater snapper-
        grouper complex and are therefore susceptible to bycatch by 
        recreational anglers targeting the complex, in 2010, NOAA 
        Fisheries instituted a complete ban on all bottom fishing in 
        depths deeper than 240 feet.
    The overall lack of quality scientific data, combined with strict 
legal requirements to end overfishing and set catch limits on all 
stocks, has resulted in numerous management decisions that have taken 
anglers off the water, hurt businesses and degraded the public's trust 
of NOAA Fisheries. Anglers are willing to make sacrifices for the 
betterment of the resource, as long as they know decisions are based on 
sound scientific information. But many of the sacrifices being imposed 
on the recreational fishing community are instead based on guesswork, 
the precautionary principle and fear of lawsuits.
    The two examples highlighted above are being reenacted across the 
country, and unfortunately many more are soon to come because of a 
legal requirement for NOAA Fisheries to place annual catch limits on 
all federally managed fish stocks by the end of 2011, regardless of the 
lack of quality biological and angler catch data. The ``one size fits 
all'' nature of this requirement undermines the discretion by the 
Regional Fishery Management Councils and is resulting in hundreds of 
new, arbitrary and precautionary limits being put in place. While the 
exact consequences remain unforeseen, anglers are expecting even more 
closures in the near future due to the guesswork and precaution that 
went into these decisions. This is not fisheries management; it's 
crisis management.
The Increasing Push for No-Fishing Zones
    While the recreational fishing community been has focused on 
improving the existing fisheries management framework, another 
fisheries management approach has steadily gained more attention over 
the last several decades. Rather than devoting resources to proven 
fisheries management techniques, like seasons, bag limits, size limits, 
etc., some groups are increasingly promoting area-based closures as a 
means to protect sensitive habitats, rebuild fish stocks, and a variety 
of other stated purposes. Commonly known as marine reserves or marine 
protected areas (MPAs), the concept of limiting or completely 
restricting fishing in certain areas of the ocean or freshwater bodies 
of water has been used effectively in some instances when supported by 
science and when all other management options have failed. However, 
MPAs are now often proposed as a catchall solution to any aquatic 
resource management issue, without regard for the negative economic and 
conservation impacts that such draconian restrictions will have.
    Recreational fishermen view themselves as conservationists first 
and foremost, as evidenced by the millions of dollars they contribute 
to fisheries conservation and the countless hours volunteered towards 
fish stocking and fisheries habitat projects. Recreational fishing 
accounts for just 2 percent of all marine finfish harvest, compared to 
the 98 percent harvested by the commercial fishing industry. According 
to the NOAA Fisheries, over half of all fish caught by anglers are 
released alive. Most recreational fishing gear never comes in contact 
with any aquatic habitat, whereas commercial gears like trawls scour 
the bottom of the ocean. I say this not to put commercial fishermen in 
a bad light, but rather to highlight the relatively light environmental 
footprint that recreational fishermen have on the environment, while 
also contributing so much- both financially and through volunteer work 
on fisheries restoration projects--back into conserving the sport we 
love. This point is too often forgotten or ignored when policymakers 
and NGOs push for excluding all fishing activities in huge swaths of 
the ocean based on ideology rather than science. Anglers across the 
country are increasingly seeing more efforts to close public waters for 
reasons other than sound science.
    California is close to finalizing a statewide effort that will 
place 15-20 percent of the state's coastal waters off limits to fishing 
through a process called the Marine Life Protection Act Initiative 
(MLPA). In areas of the state where closures have already been in 
effect, retailers have reported an average loss in sales of 20 percent, 
which they attribute to a loss of fishing access as a result of the 
MLPA closures. This early indicator will be followed by lost sales and 
jobs in the lodging and food industries that support recreational 
angler visits to California coastal areas. In the best of times, 
economic impacts and job losses such as these should never be forced on 
coastal communities by the State without absolute necessity. Today, in 
the worst economic climate since the Great Depression, such losses are 
entirely unacceptable, especially when the program for which they are 
sacrificed is both unnecessary and, quite possibly, actually 
destructive to the resources targeted for protection.
    There are zero fish stocks in California's coastal waters that are 
currently undergoing overfishing. The conservation provisions of the 
state's Marine Life Management Act largely have been implemented, and 
California's marine fish stocks are rebuilding thanks to traditional 
fisheries management tools. Issues including ocean side development, 
invasive species, ocean acidification and terrestrial pollution 
represent far greater threats to the health of the ocean than 
recreational fishing ever has, and none of these other threats can be 
addressed or solved by implementing a network of MPAs.
    Perhaps at the root of the problem with the MLPA was the fact that 
the process was largely funded, through a public-private partnership, 
by private organizations that favor fishing closures. Under the MLPA 
process dictated by the agreement between the state and the funding 
organizations, statutory requirements have been ignored, environmental 
review has been flawed, and private meetings that should have been open 
to the public were held, during which important decisions were made. 
What Californians are left with is a vast, complicated network of 
closures that the state cannot afford to monitor and enforce, and which 
will only harm anglers and the businesses that depend on fishing while 
providing no benefits to the resource.
    On the other side of the country, officials at Biscayne National 
Park are proposing to close some of south Florida's most popular and 
productive shallow water reefs to all fishing. Given its location 
adjacent to Miami and abundant recreational opportunities, Biscayne 
National Park receives roughly 10 million angler visits a year, 
supporting local businesses and providing a unique opportunity for the 
public to enjoy the outdoors so close to a major urban area. Marine 
reserves have been promoted by park officials for several years, 
despite opposition from numerous stakeholders, the Florida Fish and 
Wildlife Conservation Commission, and the park's own Fishery Management 
Plan working group. All of these groups recognize that there are 
management challenges facing the park, but excluding the public from 
accessing public resources is not the appropriate way to address these 
challenges. Ignoring the input from stakeholders and partners, the 
National Park Service seems intent on going forward with closing off 
over 10,000 acres of public waters to fishing despite the lack of 
scientific evidence to support the decision.
National Ocean Policy = More Fishing Closures?
    Efforts such as in California and Biscayne National Park to 
prohibit the public from accessing public resources for reasons other 
than sound fisheries management directly conflict with the public trust 
doctrine in which our nation's natural resources are held and create 
further mistrust of the government. The proliferation of proposals to 
permanently close fishing areas to the public has made the recreational 
fishing community increasingly sensitive to potential threats to our 
sport. Rather than providing an opportunity to expand and promote 
fishing access to our oceans, anglers cannot help but view the National 
Ocean Policy--particularly CMSP--as another effort to place areas off-
limits to the public based on the planning documents released to date.
    An overarching concern of our community with the National Ocean 
Policy, particularly as it pertains to CMSP, is the treatment of 
recreational uses as one of numerous ocean ``sectors'' for which 
planning activities will occur, along with oil, gas, mining, commercial 
fishing, transportation and defense. We firmly believe that there is a 
distinct and inherent difference between recreational and industrial 
ocean uses, and their respective impact on the ocean environment. 
Members of the public who choose to spend leisure time on the water 
fishing with family and friends are fundamentally different than 
commercial activities in which a public resource is extracted for the 
purpose of selling that resource. Recreational use of our public waters 
is not only compatible with, but in fact is essential to, sound 
conservation and natural resource stewardship, as highlighted by 
contributions made to successful conservation programs such as the 
Sport Fish Restoration Program. Because recreational angling and 
boating contribute directly to funding the conservation of our nation's 
aquatic resources and provide other significant social and economic 
benefits, these activities warrant special and elevated consideration 
as a national priority as the National Ocean Policy moves forward.
    It is worth noting that within this Administration's other major 
resource conservation initiative--America's Great Outdoors- increasing 
and improving recreational access is one of the primary goals. Because 
of its elevated support for outdoor recreation access and opportunities 
on public lands and waters, our community has strongly embraced and 
promoted the America's Great Outdoors initiative, whereas the National 
Ocean Policy, particularly as it pertains to CMSP, has created 
considerable concern.
    While efforts have been made by the Obama Administration to 
alleviate some of these concerns, such as listing a national goal of 
CMSP to ``provide for and maintain public access to the ocean, coasts, 
and Great Lakes,'' other language in the recently released draft 
Implementation Plan and previous National Ocean Policy documents fuels 
the concern that areas of our nation's coastal and marine waters will 
ultimately be closed to recreational fishing under the CMSP process. 
For example, the National Objective 2 of CMSP, to ``(r)educe cumulative 
impacts on environmentally sensitive resources and habitats in ocean, 
coastal, and Great Lakes waters,'' can be interpreted to mean 
identifying areas in which certain oceans uses, such as recreational 
fishing, will ultimately be restricted.
    It is a long-standing policy of the federal government to allow 
sportsmen public access to public resources for recreational purposes 
consistent with sound conservation. This policy is reflected in the 
principles of our wildlife refuges, national forests and national 
parks. As such, the National Ocean Policy should recognize the unique 
contributions of the recreational fishing community to the economy and 
conservation and re-affirm President Clinton's Executive Order on 
recreational fishing (#12962), as amended by President Bush via E.O. 
13474 which requires that recreational fishing be managed as a 
sustainable activity in federal waters.
    In several states that have undertaken coastal and marine spatial 
planning processes, the existing authority of fisheries management 
agencies was expressed from the outset. This went a long way towards 
alleviating concerns that fishing activities would be unnecessarily 
restricted by CMSP planning bodies which have little, if any, expertise 
in fisheries management. For example, the enabling legislation for the 
Massachusetts CMSP process, the Massachusetts Oceans Act of 2008, 
states:
        ``In the geographic area subject to the ocean management plan, 
        as described in paragraph (b), commercial and recreational 
        fishing shall be allowable uses, subject to the exclusive 
        jurisdiction of the division of marine fisheries. Any component 
        of a plan which regulates commercial or recreational fishing 
        shall be developed, promulgated and enforced by the division of 
        marine fisheries pursuant to its authority under chapter 130.''
    The Massachusetts act also includes the following language further 
reinforcing the authority of the state marine fisheries agency:
        ``The director of marine fisheries, subject to the approval of 
        the marine fisheries advisory commission, shall have sole 
        authority for the opening and closing of areas within the 
        geographic area described in subsection (b) for the taking of 
        any and all types of fish.''
    In Washington State, recent legislation to initiate a CMSP process, 
the Washington Marine Waters Planning and Management Law of 2010, 
includes similar language providing the state fish and wildlife agency 
with the sole authority to manage fishing activities as part of the 
CMSP process:
        ``If the director of the department of fish and wildlife 
        determines that a fisheries management element is appropriate 
        for inclusion in the marine management plan, this element may 
        include the incorporation of existing management plans and 
        procedures and standards for consideration in adopting and 
        revising fisheries management plans in cooperation with the 
        appropriate federal agencies and tribal governments.''
    In the cases of Massachusetts, Washington and Rhode Island--which 
also undertook a CMSP process--recreational fishing and boating 
received priority consideration in the development of the plans. 
Importantly, these processes also required that potential impacts on 
recreational fishing and boating be taken into account and minimized 
while planning for other future or existing activities.
    To date, the recreational fishing community's concerns that CMSP 
will ultimately lead to unnecessary closes of marine waters have 
largely gone unheard, despite numerous letters and discussions with 
Administration officials. It is our hope the Obama Administration will 
review the enabling legislation for the state CMSP processes described 
above and incorporate similar language reserving management of 
recreational fishing under existing authorities into the Final 
Implementation Plan and all future CMSP guiding documents. In 
Massachusetts, Rhode Island and Washington, elevating the status of the 
recreational fishing and boating community in CMSP was critical to 
generating support from our community and ultimately leading to a 
successful outcome.
    Thank you for your time, and I'm happy to answer any questions the 
committee may have.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Zurn.
    And next up we have Mr. Gibson.
    Sir, you have five minutes.

           STATEMENT OF H. TERRY GIBSON, PRINCIPLE, 
                     NORTH SWELL MEDIA, LLC

    Mr. Gibson. Good morning, Chairman Fleming, Ranking Member 
Sablan, and members of the Subcommittee. Thank you for this 
opportunity to testify today. My name is Terry Gibson, and I am 
a small business owner, entrepreneur, and third-generation 
Floridian. I am an avid diver, angler, and hunter. I own a 
charter fishing service in Jensen Beach. I also do work for the 
State of Florida promoting boating and fishing, and I am the 
co-owner and editor of a recreational fishing publication.
    I grew up learning to love the outdoors from my parents and 
grandparents, and spent years hearing their stories of how the 
South Atlantic's coastal and ocean environment had changed over 
the preceding 100 years. Each time I go fishing, I don't just 
see the fisheries of today. I also remember the abundant 
fisheries of the past, and I envision their future.
    The health of our ocean and coasts underpins the prosperity 
of many thousands of small businesses like my own that benefit 
in numerous ways from recreational fishing and responsible 
commercial fishing. But our current system for managing those 
valuable ocean resources is a labyrinth of jurisdictional 
boundaries that causes State and Federal agencies to work at 
cross purposes. Fragmented management regimes have consistently 
led to irrational management choices, unnecessarily destructive 
development, and frustrated stakeholders, like me.
    Our Nation needs to reform ocean management and create a 
coordinated regional system that breaks down silos between 
different agencies. Our Nation needs the National Ocean Policy. 
The National Ocean Policy ensures that activity on or impacting 
our ocean is managed in a smart and coordinated way. It 
anticipates conflicts before they explode, and makes the best 
possible choice, balancing competing interests in an 
intelligent way.
    Under our current system, laws designed to protect folks 
like me are not being faithfully executed. I have, along with 
friends and allies, spent inordinate sums of money and time on 
lawyers and experts to protect the places where I fish. As a 
fisherman and small business owner, I shouldn't have to go to 
court just to try and force the government to consider a 
project's impacts on my livelihood and quality of life. I 
should not have to hire lawyers, just to have my voice heard.
    That is why the administration's National Ocean Policy is 
so important. It will finally place the management decisions 
closer to those who are impacted. It will finally create an 
integrated, multi-sector, regionally, based ocean management 
system, and a forum where all stakeholders can be heard. And, 
despite the claims of others on this panel here today, it will 
finally protect fishermen and small business owners like me.
    Unfortunately, what you will hear from many of the more 
vocal voices on the fringe of the fishing community is fear, 
confusion, and an unwillingness to engage in a proactive 
process. In reality, the National Ocean Policy does not grant 
any agency additional powers to close fisheries, to create 
marine reserves, or any other type of protected area. What it 
does do is guarantee the fishing community will have a seat at 
the table for any ocean and coastal management decisions by 
other agencies or industries that might impact our way of life.
    One of my biggest concerns is that other industries with 
more resources to devote to high-priced lobbyists and insider 
games will squeeze fishermen out of productive areas and damage 
essential fish habitat. Such undesirable outcomes are far more 
likely to become realities under our current chaotic system 
than with the implementation of the National Ocean Policy. The 
challenge as industrial uses of the ocean expand is ensuring 
that the conservation gains we have achieved under the 
Magnuson-Stevens Act and the Fishery Management Council System 
are not further undermined by uncoordinated decision-making. 
Wind energy, wave energy, aquaculture, they are all coming. And 
we must have a plan to develop and site these industries 
responsibly.
    The National Ocean Policy was the product of a long, 
thorough, bipartisan process that will continue to evolve, and 
needs input from all of us. But it must not become a political 
whipping boy for people who don't understand or choose to 
ignore the critical void it is seeking to fill. Fishermen have 
made sacrifices to achieve the progress we are seeing on the 
water. Science-based catch limits under the Magnuson-Stevens 
Act are working. We are already seeing our investment in 
sustainable fishing pay dividends. The list of species rebuilt 
and rebuilding continues to grow. And landings are increasing, 
as populations do.
    Now we must turn to other major threats, habitat loss, 
declining water quality, acidification, and unplanned offshore 
energy development. National Ocean Policy gives fishermen, for 
the first time, the tools they need to make a difference in 
combating these threats. Fishery management councils will be 
given a seat on new regional planning bodies, so we can have 
our say.
    Mr. Chairman, I want our kids and grandkids to grow up 
enjoying abundant ocean fisheries, just as my parents and 
grandparents did. With the National Ocean Policy taking shape, 
I have one more reason to be optimistic that they will.
    Thank you for your time.
    [The prepared statement of Mr. Gibson follows:]

      Statement of Terry Gibson, Principle, North Swell Media, LLC

    Chairman Fleming, Ranking Member Sablan and members of the 
subcommittee, thank you for the opportunity to testify before you 
today. My name is Terry Gibson and I am a small-business owner, 
entrepreneur, and a third-generation Floridian. Some of my earliest 
memories are of enjoying Florida's great outdoors, and I spent much of 
my youth hunting and fishing while living in Florida and Alaska. I 
remain an avid angler, diver and hunter, and I own a charter fishing 
service in Jensen Beach where I reside. I also spend time working as a 
contractor, including work for the state of Florida to promote boating 
and fishing. I am co-owner and editor of a new tablet-based 
recreational fishing publication, Fly & Light Tackle Angler.
    I grew up learning to love the outdoors from my parents and 
grandparents, and spent years hearing their stories of how the South 
Atlantic's coastal and ocean environment had changed over the preceding 
100 years. Each time I go fishing, I don't just see the fisheries of 
today; I also remember the abundant fisheries of the past--and envision 
their future.
    Though I have published in the scientific literature and 
contributed to a number of reports on serious conservation issues 
affecting sportsmen, my primary professional background is in 
journalism for outdoor enthusiasts. I have served as the East Coast 
Editor of Surfer Magazine, Editor of Saltwater Fly Fishing magazine, as 
an editor at Florida Sportsman/Shallow Water Angler, and as the Fishing 
Editor of Outdoor Life. I have covered conservation issues in more than 
20 countries and most coastal states. And I have done some combination 
of fishing, hunting, diving and surfing in at least 10 countries and 40 
states, often as a paid professional.
    In a time when most in the outdoor media industry see little reason 
for optimism, my business partner, Capt. Mike Conner and I see a 
landscape teeming with opportunities for those willing to embrace 
evolving media formats and do the hard work to ensure that our natural 
resources are managed sustainably. The health of our ocean and coasts 
underpins the prosperity of many thousands of small coastal businesses 
that benefit in numerous ways from recreational fishing and responsible 
commercial fishing.
Need for Better Management
    Growing up in South Florida, I have watched countless state and 
federal agencies work at cross-purposes. Fragmented management regimes 
have consistently led to irrational management choices, unnecessarily 
destructive development, and frustrated stakeholders. Time after time 
through the years, I have thought to myself, ``There has to be a better 
way.'' Indeed, there is a better way: The National Ocean Policy.
    The National Ocean Policy (NOP) addresses problems that have been 
raised for years by experts in science and policy and people like me 
who have been hurt by the impacts of a tangled web of bureaucracy. The 
current system is a labyrinth of jurisdictional boundaries, where legal 
challenges are often the only tool to settle conflicts between user 
groups. Our nation needs to reform ocean management and create a 
coordinated, regional system that breaks down silos between different 
agencies. The NOP ensures that activity on or impacting our ocean is 
managed in a smart and coordinated way. It's an effort to move beyond 
the failed system of the past and create a better future for fishermen 
and countless others who enjoy and rely upon the ocean. It's an 
important step forward that our nation's fishermen should embrace.
    I speak from experience when I say that without a new management 
framework, which the National Ocean Policy has an opportunity to 
provide, fishermen are--and increasingly will be--at a severe 
disadvantage when it comes to head-to-head conflict with other 
interests and industries. I don't want to perpetuate a system in which 
different stakeholders settle conflicts through costly and damaging 
legal and political battles. I want a system that anticipates those 
conflicts before they explode, and makes the best possible choice, 
balancing competing interests in an intelligent way.
    I am a veteran of the kinds of conflicts inherent in the old 
system. Several times, together with friends and groups with shared 
interests in protecting Essential Fish Habitat, I have had to file 
lawsuits to try and stop development and construction projects from 
destroying the most productive places where we love to fish. For 
example, one of these suits prevented a massive dredge-and-fill 
project, advertised as ``beach nourishment,'' from destroying the beach 
at Florida's Lake Worth Pier and surrounding beaches and reefs, where 
thousands of people go every week to fish, surf, dive and more. I had 
seen the consequences of these massive dredge-and-fill operations 
before: miles of shoreline of chronically filthy water, buried reefs, 
and fake mud beaches that the turtles and birds hate. That's the kind 
of no-fishing zone I'm dead against--the type that renders valuable 
places unproductive and unattractive for wildlife and people.
    Access is a null issue in places where fishing is no longer 
worthwhile. I could spend all week telling you about the countless 
honey holes I've seen destroyed since my childhood--because government 
agencies worked against each other, treating fish, fishermen and fish 
habitat as little more than an afterthought. As a fisherman and small-
business owner, I shouldn't have to go to court just to try and force 
the government to consider a project's impacts on my livelihood and 
quality of life. I should not have to hire lawyers just to have my 
voice heard.
    That is why the administration's National Ocean Policy--in large 
part an effort to implement key recommendations of the bipartisan, 
Bush-appointed U.S. Commission on Ocean Policy--is so important. It 
will finally place the management decisions closer to those who are 
impacted. It will finally create an integrated, multi-sector, 
regionally based ocean management system and a forum where all 
stakeholders can be heard. And despite the claims of others on this 
panel here today, it will finally protect fishermen and small-business 
owners like me.
National Ocean Policy
    Unfortunately what you will hear from many of the more vocal voices 
on the fringe of the fishing community is fear, confusion and an 
unwillingness to engage in a proactive process.
    In reality, the NOP does not grant any agency additional powers to 
close fisheries, or to create marine reserves or any other type of 
protected area. When more than one-third of federal waters in the Gulf 
of Mexico were closed to fishing, it was not because of the NOP. The 
closure occurred because of a conflict between two key ocean uses in 
the Gulf: offshore oil drilling and fishing. It occurred because of an 
absence of agency oversight--and because of an inadequate initial 
response due to the lack of coordinated planning between state and 
federal agencies.
    The NOP gives fishermen an equal, if not greater, voice alongside 
other ocean industries and users. In its absence, what are we to 
expect? Take, as just one example, the administration's ``Smart from 
the Start'' initiative, unveiled by Interior Secretary Ken Salazar in 
November 2010. The initiative seeks to speed offshore wind energy 
development off the Atlantic Coast. How can we ensure that alternative 
energy projects are sited, and sited in a way that doesn't negatively 
impact fishing opportunities from Maine to Florida? I ask my friends 
who love to fish: do you want to have to fight for your voice to be 
heard for each and every new initiative like this one, or do you want 
to have a single forum for all ocean issues where you are guaranteed a 
seat at the table?
    Regional planning bodies (RPB) under the NOP are a venue that can 
give fishermen a voice. Fishery Management Councils, as representatives 
of the fishing industry, will be given a seat on these bodies under the 
administration's proposals. I am optimistic that the process will help 
new stakeholders find places to operate profitably and sustainably in 
U.S. waters without displacing traditional commercial and recreational 
uses. Wind energy, wave energy, aquaculture--they are all coming. And 
we must have a plan to develop and site these industries responsibly. 
If we don't, chaos will ensue and fishermen will lose out.
Real Threats to Fishing
    I hope that the NOP and the RPBs it creates will work aggressively 
toward addressing the biggest threat to fishing--loss of functional 
access to productive waters due to pollution and habitat degradation. 
One of my biggest concerns is that other industries, with more 
resources to devote to high-priced lobbyists and insider games, will 
squeeze fishermen out of productive areas and damage essential 
habitats--as it has pained me to watch so many times. Such undesirable 
outcomes are far more likely to become realities under our current 
chaotic system than with the implementation of the NOP. The challenge 
as industrial uses of the ocean expand--and expand they will--is 
ensuring that conservation gains achieved under the Magnuson-Stevens 
Act (MSA) and the Fishery Management Council system are not further 
undermined by uncoordinated decision-making by other federal agencies.
    As fishermen we fought hard to ensure that we were given a seat at 
the table and a vote on the RPBs and we have been heard. The RPBs will 
give us a place besides the courtrooms to stick up for ourselves, to 
learn more about the challenges of implementing new offshore 
development such as wind energy, and to work collaboratively with these 
new stakeholders to ensure that ocean uses are safely maximized for the 
nation's benefit.
Conclusion
    The National Ocean Policy was the product of a long, thorough, bi-
partisan process. It will continue to evolve and needs the input of us 
all; but it must not become a political whipping boy for people who 
don't understand--or choose to ignore--the critical void it is seeking 
to fill. The National Ocean Policy, the important coordinating 
structures it establishes, and critical tools like Marine Spatial 
Planning, are too important for our fishing future to reflexively 
vilify. Many fishermen like me see these tools as essential if our 
long-term fishing opportunities are to be sustained.
    Fishermen have made sacrifices to achieve the progress we are 
seeing on the water. The NOP works to ensure that the progress towards 
sustainable fisheries achieved through implementation of science-based 
catch limits is not undermined by an activity that the fishery 
management councils have no control over. The National Ocean Policy 
creates the appropriate regional forums and processes for conservation 
benefits to be guaranteed.
    As American fishermen, we are proud of the great strides we've made 
toward ending and preventing overfishing. MSA is clearly working--the 
list of species rebuilt or rebuilding continues to grow, and landings 
will increase as the populations do. Now we must work within the 
regional planning body process to ensure that we stem the tide of empty 
hooks because of other major fisheries problems, including habitat 
loss, declining water quality and unplanned offshore energy 
development. Fishermen around the country stand ready once again to 
roll up their sleeves and engage in the difficult work necessary to 
ensure our kids will be able to enjoy abundant fisheries. In so doing, 
we look forward to striving for harmony with ocean neighbors old and 
new through the National Ocean Council process.
                                 ______
                                 
    Dr. Fleming. I thank you, Mr. Gibson.
    Next, Mr. Mannina.
    You have five minutes, sir.

             STATEMENT OF GEORGE J. MANNINA, JR., 
                     PARTNER, NOSSAMAN, LLC

    Mr. Mannina. Thank you, Mr. Chairman. It is a privilege to 
be here today before you with this Subcommittee, for whom I 
served as a counsel for many, many years. But, unlike my 
colleagues on this panel, I am not going to talk about whether 
the National Ocean Policy is a good or a bad idea. That is for 
you gentlemen to decide. What I am going to suggest to you is 
that it violates the Separation of Powers clause of the U.S. 
Constitution.
    Allow me to begin by defining what the National Ocean 
Policy does. There are 23 agencies that will develop ocean 
conservation plans that focus, among other things, on ecosystem 
management and marine spatial plans. Executive Order 13547 
directs Federal agencies and departments to implement each and 
every existing statute, so as to ensure there is no adverse 
impact to the oceans. Assuring no adverse impact is 
accomplished by implementing the National Ocean Policy.
    Now, consider for a moment, in your position as 
legislators, the range of activities likely to be affected by 
the National Ocean Policy. Among those activities include: 
highway construction and operation, because highway runoff 
flows into waters which flow into the oceans; industrial 
discharges into navigable waters; municipal wastewater 
discharges into navigable waters; air emissions--think ocean 
warming and ocean acidification; agriculture--think fertilizer 
and pesticide runoff; OCS leasing.
    And finally, consider a statute with which this 
Subcommittee works regularly, the Magnuson-Stevens Act, and 
consider these two examples. Assume for a moment that a 
Regional Fishery Management Council approves a fishery 
management plan that opens an area to commercial or 
recreational fishing. Assume that the National Ocean Policy, 
through its marine spatial planning, closes that area. Who 
wins? The answer is the National Ocean Policy. And the FMP, the 
fishery management plan, is disapproved.
    Consider another example. I am currently involved in some 
litigation in which the plaintiff is arguing that harvest 
levels should be reduced, and more fish set aside for forage 
for ecosystem management. If the result of the National Ocean 
Policy is the direction that some percentage of forage fish be 
set aside for ecosystem management, it will directly affect 
harvest levels by directing the contents of FMPs.
    And finally, consider that the Magnuson-Stevens Act 
established fishery management councils to develop the contents 
of FMPs. That statutory process could be displaced by the 
National Ocean Policy.
    The reality is that the Executive Order and the National 
Ocean Policy will create new legal requirements applicable to 
the Magnuson-Stevens Act and to all public laws. The question 
is: What is the legal authority for that?
    The Constitution vests the authority to legislate with 
Congress. Because the Executive Order is legislative in effect, 
the Constitution provides no basis for the Executive Order. 
That said, the Executive Branch can properly issue rules 
interpreting and implementing legislation. However, that 
authority is not applicable here for at least three reasons.
    First, the power of the Executive Branch to issue rules 
implementing a statute comes from a congressional delegation of 
authority. Here there is no delegation of authority. Here there 
is no statute authorizing the Executive Branch to create a new 
oceans policy and to superimpose that on all other public laws.
    Second, when Congress delegates legislative authority to 
the Executive Branch to promulgate rules, it does so pursuant 
to the Administrative Procedure Act, which allows such rules to 
be subject to judicial challenge. Here, the Executive Order 
states there is no judicial review. For example, if a marine 
spatial plan closes an area to fishing, there is no judicial 
review.
    And third, the National Ocean Policy is not an 
interpretation of individual statutes, but is, in effect, the 
enactment of a new super-statute. You may search the Magnuson-
Stevens Act in vain for authorization to establish an ocean 
zoning program for fisheries. This is not the implementation of 
a statute; this is the enactment of a new statute.
    And for those reasons, I believe that implementation of the 
National Ocean Policy will likely result in court decisions, 
perhaps in the Supreme Court, regarding the constitutionality 
of the Executive Order and the National Ocean Policy.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mannina follows:]

                  Statement of George J. Mannina, Jr.

    Mr. Chairman and distinguished members of this Subcommittee, I am 
pleased to be here today. I was privileged to serve as Counsel to this 
Subcommittee for eight years prior to becoming the Chief Counsel and 
Staff Director for the Republican members of the House Merchant Marine 
and Fisheries Committee before it was merged into the Committee on 
Natural Resources. During my years with the Subcommittee and Committee, 
and since that time, I have worked on numerous ocean policy issues. I 
am testifying today in my individual capacity and not on behalf of any 
client or of my firm, Nossaman LLP, although one of our associates, 
Audrey Huang, has worked with me on this testimony.
Executive Order 13547 and the Final Recommendations of the Interagency 
        Ocean Policy Task Force
    The Final Recommendations of the Interagency Ocean Policy Task 
Force dated July 19, 2010 (``Task Force Report'') establish a National 
Ocean Council of at least 23 members. Task Force Report at 20. The 
National Ocean Council is awarded the overall responsibility for 
developing a national ocean conservation program, including specific 
action plans. Id. at 20-21. The priority ocean conservation objectives 
include: (1) ecosystem protection and restoration, (2) enhancing ocean 
water quality by implementing sustainable practices on land, and (3) 
coastal and marine spatial plans. Id. at 6, 28.
    The Task Force Report provides that National Ocean Council members, 
which include the Secretary of the Interior, the Secretary of Commerce, 
and the Administrator of the Environmental Protection Agency, will 
``adhere'' to the conservation plan developed by the National Ocean 
Council, including the coastal and marine spatial plans. Id. at 29-31, 
65, 77. The Task Force Report then establishes a mechanism to ``ensure 
execution'' of the National Ocean Plan developed by the National Ocean 
Council and to ``ensure implementation'' of the coastal and marine 
spatial plans. Id. at 21.
    Executive Order 13547, signed by President Obama on July 19, 2010 
``adopts the recommendations of the Interagency Ocean Policy Task Force 
... and directs executive agencies to implement those recommendations 
....'' Executive Order 13547 at Sec. 1. The Executive Order states its 
purpose is to ``ensure'' that federal agencies implement the National 
Ocean Plan ``to the extent consistent with applicable law.'' Id. at 
Sec. 5(b). Lest there be any doubt, the Executive Order directs that 
all federal departments and agencies ``shall, to the fullest extent 
consistent with applicable law'' implement the National Ocean Plan. Id. 
at Sec. 6(a).
The Impact of the National Ocean Plan on Existing Laws
    Assume an ocean resource management plan is properly developed 
pursuant to an existing Public Law. Assume further that the plan is 
presented to an agency decisionmaker for final approval. If the ocean 
resource management plan conflicts with the National Ocean Policy and 
Plan, is the agency decisionmaker required to disapprove the duly 
prepared resource management plan?
    Consider, for example, the Magnuson-Stevens Fishery Conservation 
and Management Act (``Magnuson-Stevens Act''), 16 U.S.C. Sec. 1801, et 
seq., which establishes eight Regional Fishery Management Councils 
(``Councils'') charged with the responsibility of developing fishery 
management plans (``FMPs'') in their areas of geographic 
responsibility. The process by which a Council develops an FMP is one 
full of analyses by expert Council and agency staff. There are multiple 
opportunities for public testimony and input. The process can consume 
years. The Magnuson-Stevens Act provides that after this process is 
complete and an FMP is approved by a Council, the FMP must be reviewed 
by the Secretary of Commerce. The Secretary of Commerce must approve 
the FMP if it is consistent with ten National Standards set forth in 
the Magnuson-Stevens Act and with applicable law. 16 U.S.C. Sec. 1854.
    Let us assume for a moment that a Council has completed its FMP 
development process and the resulting FMP allows commercial and/or 
recreational fishing in a specific ocean area. Let us also assume the 
National Ocean Plan has been completed and it closes the same area to 
all fishing. The question is what does the Secretary do when reviewing 
the Council-approved FMP.
    I asked that precise question of representatives of the Council on 
Environmental Quality. In fact, I asked the question three times. The 
first two were greeted with variations of the response that developing 
the National Ocean Plan will be a multi-year process with full public 
input. My third attempt to secure an answer stipulated there had been a 
full public process and the final ocean plan closed the area to 
commercial and recreational fishing. In that fact pattern, would the 
National Ocean Plan trump the Council's decision and require the 
Secretary of Commerce to disapprove the FMP? The final answer was yes. 
The National Ocean Plan would require the Secretary to disapprove the 
Council approved FMP because the FMP was inconsistent with the National 
Ocean Plan developed by the National Ocean Council.
    Allow me to use another example. I am currently involved in a 
lawsuit defending a fishery management plan amendment against 
allegations that the Secretary of Commerce, acting through the National 
Marine Fisheries Service (``NMFS''), approved harvest levels that 
failed to leave an adequate amount of forage fish in the ocean. The 
Plaintiff cites with approval studies that, according to the Plaintiff, 
argue for the position that ``fishery managers set catch limits that 
leave most, if not all, of the forage species' virgin biomass (the 
level of biomass that would exist without any fishing) in the ecosystem 
to ... maintain ecosystem health.'' A virgin biomass equates to no 
fishing, particularly when virtually every species is forage to another 
species.
    Assume arguendo that the final National Ocean Plan requires a fixed 
percentage of forage fish to be set aside for purposes of proper 
ecosystem management given that ecosystem management is one of the 
priority objectives of the National Ocean Plan. According to Executive 
Order 13547 and the Task Force Report, the National Ocean Plan would 
then govern how the Secretary of Commerce and NMFS exercise discretion 
in determining if a Council approved FMP meets the requirements of the 
Magnuson-Stevens Act. In short, the National Ocean Plan could regulate 
harvest levels by directing how the Secretary of Commerce and NMFS are 
to implement their approval authority under the Magnuson-Stevens Act. 
In fact, it would appear that under this interpretation of the 
Executive Order, the Order would be considered the equivalent of other 
applicable law with which FMPs must be consistent.
    In both examples above, it does not matter if the National Ocean 
Plan is viewed as a required interpretation of the Magnuson-Stevens Act 
National Standards or as applicable law with which the Council approved 
FMP must be consistent. The result is the same. The National Ocean 
Plan, once fully implemented, effectively amends the Magnuson-Stevens 
Act by establishing new standards that govern what is or is not 
acceptable in an FMP.
    There is another aspect of this issue that is equally important. 
Congress, through the Magnuson-Stevens Act, created a process by which 
FMPs are developed and fishery conservation and management decisions 
are made. That process is through the Regional Fishery Management 
Councils and the legislative history of the Magnuson-Stevens Act is 
clear that the Councils have primary authority. The net effect of the 
National Ocean Plan could well be to amend or repeal that statutory 
Council-driven process, replacing it with the National Ocean Policy 
process and requirements.
    The legal issue associated with all of these examples is that the 
Constitution vests the power to enact and to amend laws with the 
Congress. Advocates of the National Ocean Policy, no matter how well 
meaning, cannot by Executive Order or policy statement amend a Public 
Law to create new statutory standards. That is a power reserved to the 
Congress by Article 1, Sec. 1 of the U.S. Constitution which provides: 
``All legislative Powers herein granted shall be vested in a Congress 
of the United States, which shall consist of a Senate and House of 
Representatives.''
The Executive Order and The National Ocean Policy Report Present a 
        Serious Constitutional Issue
    As one legal scholar noted: ``An Executive Order is a Presidential 
directive that the government and/or private parties act in a 
prescribed way. Although such orders come cloaked with the prestige and 
aura of that high office, unless some constitutional or statutory 
authority supports the directive, it has no legal effect.'' Morton 
Rosenberg, Presidential Control of Agency Rulemaking: An Analysis Of 
Constitutional Issues That May Be Raised By Executive Order 12,291, 23 
Ariz. Law Review 1199 (1981), at 1205, citing Youngstown Sheet and Tube 
Co. v. Sawyer, 343 U.S. 579, 585 (1952). In that case, the Supreme 
Court also stated:
        In the framework of our Constitution, the President's power to 
        see that the laws are faithfully executed refutes the idea that 
        he is to be a lawmaker. The Constitution limits his functions 
        in the lawmaking process to the recommending of laws he things 
        wise and the vetoing of laws he thinks bad.
Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 587 (1952).
    In a subsequent case, the Supreme Court returned to the separation 
of powers issue stating:
        [I]t remains a basic principle of our constitutional scheme 
        that one branch of the Government may not intrude upon the 
        central prerogatives of another. [Citations omitted.] ... [T]he 
        separation-of-powers doctrine requires that a branch not impair 
        another in the performance of its duties.... Article I's 
        precise rules of representation ... make Congress the branch 
        most capable of responsible and deliberative lawmaking. 
        [Citations omitted.] Ill suited to that task [is] the 
        Presidency, designed for the prompt and faithful execution of 
        the laws and its own legitimate powers....
Loving v. United States, 517 U.S. 748, 575-58 (1996).
    Executive Order 13547 begins by stating ``By the authority vested 
in me as President by the Constitution ... of the United States of 
America, it is hereby ordered....'' Executive Order 13547. As noted 
above, the Constitution does not vest the legislative power with the 
Executive Branch. The authority for the Executive Branch to effectively 
amend the Public Laws of the United States cannot be found in the 
Constitution. The Constitution does not provide the necessary legal 
authority for the Executive Order or the National Ocean Policy and 
Plan.
    That said, it is unquestionably correct that the Executive Branch 
has the power to implement and, in doing so, to interpret, statutes. 
However, the source of that interpretive authority, the authority to 
issue regulations implementing statutes, is found in the Congressional 
delegation of its legislative authority. Executive Order 13547 cites 
the laws of the United States as the second basis for its legal 
standing. The Executive Order states: ``By the power vested in me as 
President by ... the laws of the United States of America, it is hereby 
ordered ....'' Id. However, this legal theory provides no more support 
for Executive Order 13547 than the U.S. Constitution for at least three 
reasons.
    First, the authority given to the National Ocean Council by the 
Executive Order to create and to then implement an ocean policy with 
which every Public Law must be consistent is not found in any 
Congressionally passed statute.
    Second, when legislative authority is delegated to the Executive 
Branch by the Congress, it is often done with language providing for 
judicial review of agency decisions. Where such review is not 
explicitly provided, it is imputed pursuant to the provisions of the 
Administrative Procedure Act, 5 U.S.C. Sec. Sec. 702, 704, and 706 
(``APA''). Pursuant to the APA, agency rulemaking can be challenged as 
inconsistent with a duly enacted statute. However, Executive Order 
13547 states that actions taken pursuant to the Executive Order, 
actions taken to implement the National Ocean Policy, are not subject 
to judicial review. Executive Order 13547 at Sec. 9(d). In other words, 
disapproval by the Secretary of Commerce of a Council-prepared FMP 
because of its inconsistency with the National Ocean Policy is claimed 
to be beyond judicial review. This, in fact, violates the laws of the 
United States embodied in the APA.
    Third, the National Ocean Policy is not an interpretation of the 
provisions of existing statutes. It is, in fact, the creation of a new 
law and regulatory regime. I recognize Executive Order 13547 states the 
National Ocean Policy is to be implemented ``to the extent consistent 
with applicable law.'' Id. at Sec. 5(b). However, this so-called 
``savings clause'' does not save the Executive Order. The reason, as 
already noted, is that the National Ocean Policy will create a new 
legal requirement with which all existing Public Laws must conform. It 
is not the interpretation of existing authority. It is the de facto 
enactment of a new Public Law.
    I have already discussed how the National Ocean Policy can operate 
to replace the Council based FMP development process established in the 
Magnuson-Stevens Act. However, the Magnuson-Stevens Act is not the only 
statute that may be impacted. A few examples suggest the breadth of the 
National Ocean Policy. The Outer Continental Shelf Lands Act 
(``OCSLA'') authorizes the Secretary of the Interior to lease outer 
continental shelf submerged lands for oil and gas development. 43 
U.S.C. Sec. Sec. 1337 and 1344. Pursuant to that law, the Secretary of 
the Interior identifies areas that are to be leased. Because submerged 
lands would be subject to the coastal and marine spatial plans 
developed under the National Ocean Policy, these spatial plans will 
govern and control the areas available for leasing. Congress has by 
statute established standards and a process by which areas subject to 
leasing shall be identified. Congress did not establish as a standard 
that such leases are to be specified in accordance with the National 
Ocean Policy and its coastal and marine spatial plans. The practical 
effect of the National Ocean Policy is to amend the OCSLA by grafting 
onto it a new standard with which the Secretary of the Interior is to 
comply.
    As the members of this Subcommittee know, in the recent past, 
Congress grappled with the issue of clean air legislation. Those 
discussions did not result in the passage of new legislation. However, 
under the rubric of preventing or otherwise regulating ocean warming 
and/or ocean acidification, the National Ocean Policy could set 
standards and policies that bind federal agencies to promulgate new air 
emission standards or requirements that are asserted to be beyond 
judicial review pursuant to the Executive Order.
    Similarly, persons who apply for discharge permits or dredge and 
fill permits under Sections 402 and 404 of the Clean Water Act could 
find themselves subject to a new set of standards contained in the 
National Ocean Policy. Section 404, for example, provides that permits 
are issued only after a finding that permit issuance will not have an 
unacceptable adverse impact on navigable waters. 33 U.S.C. 
Sec. 1344(c). The National Ocean Policy could define what constitutes 
such an impact given that navigable waters ultimately flow into the 
oceans. Similarly, section 402 discharge permits cannot be issued if 
they adversely affect the quality of navigable waters. 33 U.S.C. 
Sec. 1342(a). Again, the National Ocean Policy is, in practical effect, 
a statutory overlay controlling the definition of an adverse effect.
    Within the next few weeks, the House of Representatives will be 
considering a surface transportation bill. Although there is 
disagreement about what should be in that legislation, Members on both 
sides of the aisle agree that transportation infrastructure is 
important and maintaining that infrastructure will create jobs. Since 
highways generate runoff that often flows into navigable waters that 
flow to oceans, it would not be unexpected that the new National Ocean 
Policy could create the equivalent of new statutory standards with 
which all surface transportation projects must be consistent.
    Advocates of the National Ocean Policy will assert that the 
Executive Branch could promulgate regulations under its existing 
delegated authority to do some or all of these things. That may or may 
not be the case, but Executive Order 13547 does not take that approach. 
Instead, it creates, via the National Ocean Policy, a new set of 
requirements with which existing statutes are to be consistent, and 
then places these new standards beyond judicial review. This 
effectively constitutes the enactment of new legislation that violates 
the separation of powers set forth in the U.S. Constitution.
    Moreover, when Congress has delegated legislative authority, it has 
done so to specific departments and agencies. Executive Order 13547, 
and its National Ocean Policy, effectively amend each of these statutes 
by changing the Congressional delegation of authority from an 
individual department or agency to a collective of at least 23 
departments and agencies.
Conclusion
    Mr. Chairman, the National Ocean Policy put forward by the 
Administration will inevitably lead to constitutional challenges that 
may require the attention of the Supreme Court. I am not saying the 
National Ocean Policy is a good or a bad idea. That is for you to 
decide. What I am saying is that there are very serious questions about 
whether the Administration can do it without your passing legislation 
giving them the authority. Without such legislation, it is quite 
possible that Executive Order 13547 and its National Ocean Policy will 
be found to violate the separation of powers set forth in the U.S. 
Constitution.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Mannina.
    And next up, Mr. LeBlanc.

                 STATEMENT OF JUSTIN LeBLANC, 
          FEDERAL REPRESENTATIVE, UNITED CATCHER BOATS

    Mr. LeBlanc. Thank you. Thank you all for the opportunity 
to testify this morning regarding the administration's efforts 
to establish a new ocean zoning regulatory scheme in the 
absence of either congressional authorization or congressional 
appropriation.
    United Catcher Boats is a trade association of 
approximately 70 vessels that participate in some of the 
largest, most valuable, and best-managed fisheries in the 
United States, including North Pacific pollock, Alaska crab, 
and Pacific whiting. Joining UCB today are nearly a dozen other 
commercial fishing organizations. Together, these organizations 
represent approximately $2 billion in annual value to the U.S. 
economy, and tens of thousands of jobs.
    We have been involved in the debate and discussion 
concerning National Ocean Policy since the very beginning, when 
the two competing national ocean commissions were established. 
Throughout the process, our concerns have been repeatedly 
expressed and repeatedly ignored. Our fundamental concern is 
that we have a robust, stakeholder-driven, science-based public 
process for the management of U.S. fisheries that should not be 
overwritten by some new Federal bureaucracy that sucks money 
away from activities and spends it on process.
    The regional planning bodies proposed by the NOP are 
comprised entirely of Federal, State, and Tribal officials, 
with no role for any of the varied ocean users. Proponents 
argue that the RPBs are simply regional planning and 
coordination bodies, with no regulatory authority. They are 
almost correct when they claim that RPBs are not regulatory. 
Because they are, in fact, supra-regulatory. There are numerous 
examples in my written testimony of where the NOP will have 
regulatory impacts. One of the most significant is on page 65 
of the Interagency Ocean Policy Task Force's final 
recommendations.
    And I will paraphrase some of this; it is a lengthy 
paragraph: ``Agencies would incorporate components of the 
Coastal Marine Spacial Plan into their respective regulation to 
the extent possible. Adherence with Coastal Marine Spacial 
Plans would be achieved through Federal and State agencies and 
Tribal authorities. CMS plan signatories would review processes 
and, where legal constraints are identified, would seek to 
remedy those constraints, by working with the National Ocean 
Council to evaluate whether a legislative solution or changes 
to regulations are necessary or appropriate.''
    Some have argued that placing a representative of the 
Regional Fishery Management Councils on the relevant RPBs would 
address our concern for input into the process. But the 
administration is insisting that such a council representative 
only be a Federal, State, or Tribal government official. Under 
the NOP implementation plan, this simply sounds like a 
convenient person for the regional planning bodies to give 
their marching orders to. No thank you.
    One of the most fascinating aspects of the NOP 
implementation plan is its failure to address who wins the 
inevitable user conflicts that will arise under the new ocean 
zoning plans. It is given that under such an ocean zoning plan, 
non-compatible users will want access to the same piece of 
ocean. A wave energy company may want to place its array in the 
middle of prime fishing grounds, for example. Nothing in the 
NOP clarifies who wins this conflict, and by what metric.
    Is it historical use of the area? The number of jobs that 
that industry creates? The ecosystem or habitat impacts that 
that activity has? The value to the economy, national security? 
None of these metrics are identified in the NOP, as to who 
would win those inevitable conflicts. When questioned during 
public sessions, the administration has stated that science 
would decide those questions. But this isn't a scientific 
question. It is a social, economic, and even a cultural one.
    Some have argued that our concerns about National Ocean 
Policy are overblown, as several states are already 
implementing CMSP within their waters. I am not familiar with 
all of these efforts, but do know some about the Washington 
State effort.
    First and foremost, Washington State's plan is not 
underway, because in statute, implementation is subject to the 
availability of Federal grants or private donations.
    Second, the Washington State law recognizes existing uses, 
and notes the substantial economic benefits of such uses, 
including commercial fishing. It also protects and encourages 
working waterfronts, and requires that any management plan that 
has a negative impact on commercial or recreational fishing 
minimize that impact. If the NOP read like the Washington State 
law, I am sure the administration would face far less 
opposition to its efforts.
    Finally, how is all of this being paid for? The President's 
budget contains no line item for National Ocean Policy 
implementation. When asked how NOAA Fisheries would pay for its 
NOP activities, fisheries head Sam Rauch indicated that it 
would be supported from within existing budget lines and 
appropriations. So a National Ocean Policy that calls for 
improved science and management will take money away from these 
very activities in order to support a new layer of bureaucratic 
processes whereby government officials alone decide how to zone 
our oceans.
    Given that the NOP has no congressional authorization, no 
direct congressional appropriations, no stakeholder input, and 
will impose a massive new ocean-zoning scheme, we recommend 
that Congress bar any Federal funds from supporting this 
effort. Thank you.
    [The prepared statement of Mr. LeBlanc follows:]

  Statement of Justin LeBlanc, Federal Representative, United Catcher 
Boats, on behalf of United Catcher Boats & Alaska Bering Sea Crabbers; 
 Alaska Crab Coalition; Alaska Groundfish Databank; At-Sea Processors 
  Association; Crab Group of Independent Harvesters; Pacific Seafood 
Processors Association; Petersburg Vessel Owners Association; Southeast 
Alaska Fishermen's Alliance; United Fishermen of Alaska; and West Coast 
                     Seafood Processors Association

INTRODUCTION
    Chairman Fleming, Ranking Member Sablan, and Members of the 
Subcommittee; thank you for the opportunity to testify today regarding 
the implications of the Administration's new National Ocean Policy 
Implementation Plan on commercial fishermen and fisheries. My name is 
Justin LeBlanc. I am the federal government relations representative 
for United Catcher Boats (UCB).
    UCB is a trade association of 70 commercial fishing vessels that 
participate in the Alaskan pollock, Alaskan crab, and West Coast 
groundfish fisheries. Our vessels are called catcher boats because that 
is all we do--we catch fish and deliver our catch ``in the round'' to 
processing facilities. We do not process the fish, even minimally.
    Joining UCB in presenting these comments to the Subcommittee are. . 

    Together, these commercial fishing and processing organizations 
represent numerous companies which participate in the federally managed 
fisheries in the Exclusive Economic Zone off Alaska, Washington, Oregon 
and California, along with businesses that rely on these companies. 
These fisheries comprise over 55% of the annual commercial seafood 
harvest of the United States. The yearly direct value is over two 
billion dollars, with hundreds of millions of dollars of secondary 
economic effects resulting from our expenditures in other sectors such 
as shipyards, marine equipment, seafood packaging, insurance and 
finance, and transportation providers.
    In addition, on November 7, 2011, the Seafood Coalition submitted a 
letter to the Full House Resources Committee (and attached to this 
testimony) expressing the need for Congressional action barring the 
Administration from continuing to divert appropriations from authorized 
programs to implement an ill-conceived NOP that is not authorized by 
Congress and that threatens fishing industry jobs.
    The Seafood Coalition is a broad national coalition that includes 
commercial fishing interests, seafood processors, and coastal 
communities. This broad-based group, which includes members from every 
region of the U.S., accounts for about 85 percent of the seafood landed 
annually in the U.S. The Seafood Coalition believes the Administration 
has turned a deaf ear to the seafood industry's concerns in 
implementing NOP, choosing instead to push ahead with a new ``top 
down'' bureaucracy empowered to develop plans and to restrict ocean 
uses through regulations issued under an array of oceans-related 
statutes.
    The commercial fishing industry has been involved in this issue for 
well over a decade since the ocean policy commissions began preparing 
their reports. We have offered our views each step of the way since 
then. When the recommendations of the oceans commissions were put into 
legislative form by various environmental groups (H.R. 4900/108th 
Congress, H.R. 2939/109th Congress, H.R. 21 in the 110th and 111th 
Congresses) we provided comments and testimony along with many other 
ocean user groups. After Congress repeatedly refused to enact this 
legislation, the approach of the environmental community changed and 
H.R. 21 reappeared in the form of the Administration's National Ocean 
Policy (NOP). The NOP was given life through the President's 
proclamation of Executive Order 13547 on July 19, 2010. We now are 
being offered another opportunity to provide comments on the NOP 
Implementation Plan, the Administration's effort to impose a new 
regulatory program for the oceans and Great Lakes.
    Although we are again submitting comments, we are disappointed that 
despite the importance of our industry to the nation's economy, and 
despite our familiarity with ocean ecosystems, our comments at each 
step in this process have been ignored. We continue to present what we 
think is an obvious case: the NOP's Coastal Marine Spatial Planning/
Regional Planning Body structure is an unauthorized new regulatory 
program aimed at imposing a new ocean governance structure which 
conflicts with successful Congressionally authorized programs such as 
regional fishery management. Nevertheless, we remain committed to 
participating in the process and we hope that the Administration will 
eventually make this as transparent and collaborative a process as has 
been claimed all along.
THE IMPLEMENTATION PLAN
    The Draft Implementation plan proclaims four overarching themes. We 
will briefly address each.
Adopt Ecosystem-Based Management
    This has been a goal of resource managers for many years. It is a 
goal that we support. But, as any oceanographer will tell you, it is 
also a goal that cannot be fully achieved without vast amounts of 
additional scientific data that will take decades to collect and 
interpret, even assuming that funding is available. In the meantime, 
resource managers must use the best available data to manage our ocean 
resources. Progress has definitely been made in moving from single 
species management to using ecosystem principles. In fact, the fishery 
management process used by the North Pacific Fishery Management Council 
incorporates consideration of ecosystem effects for almost all 
decisions they make and the Pacific Fishery Management Council is well 
along on adopting a similar process. Nevertheless, we are a long way 
from being able to claim that we understand any ecosystem well enough 
to be able to simultaneously manage all the species which interact 
within a given region. This is especially true given that current law 
requires specific actions--rebuilding overfished stocks, protecting 
endangered or threatened species, protecting marine mammals--which 
elevate certain species to a higher plane than others within an 
ecosystem.
Obtain, Advance, Use, and Share the Best Science and Data
    As we just pointed out, everyone supports collecting and using the 
best possible science. But doing so requires large amounts of money and 
time. We hope that the federal budget will soon allow a greater 
allocation of funds toward this goal. But, in the meantime, scientists 
and resource managers will have to do the best job they can with the 
data that is available. To the extent that funding is not available to 
provide precise, accurate and current data which allows the best 
management of ocean resources, we need to be careful not to set goals 
which are technically unobtainable.
Promote Efficiency and Collaboration
    Once again, we are all in favor of greater cooperation and 
coordination among the agencies which regulate ocean activities. 
Interestingly, when discussing this theme the document states, ``This 
draft Implementation Plan creates no new regulations, however, within 
existing authorities, legal and regulatory barriers to full 
implementation of the National Ocean Policy will be identified and 
permitting processes will be streamlined.'' This statement is as close 
as we have seen to an admission that there is no specific statutory 
authority for this program. It also suggests that the Administration 
intends to impose new regulations where necessary in order to eliminate 
the ``regulatory barriers'' they identify, and to seek new legislation 
that would provide the statutory authority. Strengthen Regional Efforts
    The final theme is to strengthen regional, state and local 
ecosystem conservation efforts. We doubt anyone would be opposed to 
this goal, and as long as the resources are available it is something 
we would support. At the same time, we suggest that since federal funds 
are scarce, the Administration should focus on supporting existing 
organizations with a record of success, such as the regional fishery 
management councils and the federal scientists on whom they rely.
Fiscal Responsibility
    There is a discussion of Fiscal Responsibility on page 5 of the 
document. It says that the National Ocean Council will issue an annual 
memorandum on how federal resources should be allocated. We think it 
would be more useful if a detailed NOP implementation budget were 
developed and presented to Congress. Given federal budget constraints, 
it is almost certain that Congress will continue to refuse funding for 
the NOP initiative unless such a budget plan is offered. Providing a 
budget proposal that is subject to public scrutiny and debate will also 
increase transparency of the process. The document itself even admits 
that carrying out the Implementation Plan is, ``contingent on the 
availability of funds''. This is one of the reasons we have argued 
since the beginning of this process that if NOP is to be pursued it 
should involve small steps and pilot projects. We fear that if various 
agencies attempt to implement this massive program within their current 
budgets, large amounts of money will be diverted from ongoing, 
Congressionally mandated programs. An example of the threat posed by 
such a diversion of funds is the possibility that certain fishery stock 
assessment surveys done in the North Pacific could switch from being 
done annually to being done bi-annually. Lowering the quality of the 
data available to fishery managers would threaten economic activity 
worth over one billion dollars annually. As an affected industry, we 
and our employees are not ready to see our livelihoods threatened 
should implementation of the National Ocean Policy result in funds 
being siphoned off from existing NOAA fishery programs.
Treatment of Commercial Fisheries
    As we said earlier, the commercial fishing industry has now 
participated in this process for over a decade, through the oceans 
commissions, H.R. 21, its predecessor legislation, and now NOP. Our 
goal all along has been to preserve and strengthen the system of 
regional, stakeholder-driven fishery management that has worked so well 
in our part of the country. Even after all our attempts to participate, 
the Draft Implementation Plan ignores the points we have made and 
proposes the creation of a new ocean resource management system that 
appears to have few limits. Page 9 of the report states that 
``fisheries can be better managed'' and that NOP ``will improve future 
management decisions.'' Our question is: Decisions made by whom? We 
suggest that either the Regional Fishery Management Council process be 
exempted from this entire program or that the NOP/CMSP/RPB process be 
revised so that it genuinely becomes the voluntary planning process we 
have been told it was intended to be.
The Nine Priority Objectives
    The bulk of the Draft Implementation Plan describes specific 
actions the Administration intends to take to achieve the nine priority 
objectives. There are numerous milestones and deadlines for each. We 
will not take the time to go through the scores of actions and 
milestones laid out in the plan. However, we will highlight some which 
we believe are overly ambitious/costly or which seem to lead to the 
inescapable conclusion that NOP is more of a regulatory program as 
opposed to the transparent, collegial planning process we keep hearing 
about.
    Overly Ambitious Action Proposals (target date):
        <bullet>  Page 19--Explore ``the 95-percent of the ocean that 
        remains poorly known.'' (2014)
        <bullet>  Page 23--Enhance ocean education so that ``a highly 
        competent workforce is available for U.S. employers.'' (2014-
        2017)
        <bullet>  Page 25--Assess the environmental knowledge of middle 
        school students. (2017)
        <bullet>  Page 27--Develop and deploy within ten years a fleet 
        of unmanned air, sea surface and underwater research systems. 
        (2022)
        <bullet>  Page 32--Map the entire EEZ and continental shelf. 
        (2017)
        <bullet>  Page 50--Address ``planned and unplanned activities 
        impacting coral reef ecosystems.'' (2012)
        <bullet>  Page 56--``Integrate relevant socioeconomic 
        monitoring information with ecosystem monitoring information to 
        understand changes in coupled human-natural systems in selected 
        areas.'' (2013) [Perhaps this would be a more appropriate task 
        for academia?]
        <bullet>  Page 57-58--Conduct research to assess direct and 
        indirect impacts of climate change and ocean acidification on 
        coastal communities, including estimations of mean sea-level 
        rise, impacts on jobs, and effects on marine species. (2013-
        2015)
        <bullet>  Page 65--Provide funding to private landowners to 
        help them reduce nutrient and sediment runoff. (2012)
        <bullet>  Page 67--Reduce air pollutants (sulfur, nitrogen, 
        mercury) to the oceans and Great Lakes. (2012) Control storm-
        water runoff from the federal highway system. (2015)
        <bullet>  Page 74--``Protect 2 million acres of lands 
        identified as high conservation priorities'' (including 700,000 
        acres of forest) (2015)
Evidence that NOP is a Regulatory Program
        <bullet>  Page 4--``CMSP is an important tool for implementing 
        EBM.'' It will lead to a more ``certain decision-making process 
        for managing activities in the ocean''
        <bullet>  Page 6--``The NOC expects to complete and approve the 
        final Implementation Plan in the Spring of 2012. Federal 
        agencies will then implement its initial set of actions.''
        <bullet>  Page 11--``Existing regulatory requirements and 
        programs that were developed based on a fundamentally different 
        model may need to be modified''
        <bullet>  Page 12--``an EBM approach supports adaptive, 
        iterative management.''
        <bullet>  Page 12--``various responses or actions may become 
        necessary given the limits of existing regulatory or statutory 
        authority.''
        <bullet>  Page 13--Find ``opportunities to incorporate EBM 
        principles into Federal laws, regulations, and policies''
        <bullet>  Page 15--``Establish a process for adaptive resource 
        management''
        <bullet>  Page 39--``Review the interpretation and, as 
        necessary, propose to strengthen content and/or application of 
        Federal legislation. . ...to incorporate and better support 
        climate change adaptation efforts.''
        <bullet>  Page 51-52--The Plan proposes to identify ``important 
        marine areas for management or protection''. This includes use 
        of ``national marine sanctuaries, national estuary programs, 
        and national marine monuments.'' ``Priority species'' would be 
        protected using ``Essential Fish Habitat (EFH) Provisions 
        including Habitat Areas of Particular Concern (HAPC)''. This 
        passage provides some of the strongest and clearest language 
        that RPB's, comprised principally of federal officials with no 
        expertise in fisheries management, will develop CMS Plans that 
        usurp the responsibilities of regional fishery management 
        councils. Contrary to the stated intent of the NOP, the Plan 
        creates confusion and ambiguity on EFH and HAPC 
        responsibilities, as well as other areas of fishery management 
        authorities, where none now exists.
        <bullet>  Pages 85--92--This section discusses Coastal and 
        Marine Spatial Planning and the role of the Regional Planning 
        Bodies. It lays out a detailed process for creation of the nine 
        Regional Planning Bodies, implementation of CMSP, creation of 
        CMS Plans for each region, and the presentation of these plans 
        to the National Ocean Council for certification. This is to be 
        accomplished by 2019.
    One of the stated goals of CMSP is empowering coastal communities 
through a public planning process to make decisions about activities in 
their regions. This sounds fine until you realize that the membership 
of the RPB's consists entirely of government officials, dominated by 
Federal representatives. The document states that ``Members will be of 
an appropriate level of responsibility within their respective 
governing body to be able to make decisions and commitments throughout 
the process.'' This sounds less like planning and more like regulation 
to us. The system is then removed even further from public/local 
control by the fact that once the RPB's have developed their CMS Plans, 
these plans are submitted to the National Ocean Council (a group of 27 
Federal officials). This Federal entity then decides if the plan is 
worthy of ``certification''. Our presumption is that the next step 
would be implementation of the plan through new or modified federal 
regulations. Otherwise, what would be the point of the exercise? We 
make this statement despite the following discussion that appears on 
Page 109 of the document (the ``Summary of Public Comments'' section):
        Public Comment: ``The Administration should clarify that it 
        will not be the purpose of the Regional Planning Bodies to 
        override the duties of regional fishery management councils.''
        Response: ``The Executive Order expressly provides that Federal 
        agencies will implement NOC-certified CMS Plans consistent with 
        existing statutory authority, including the Magnuson-Stevens 
        Act. Regional planning bodies will be established to develop 
        these plans. They do not have any legal authority or mandate 
        that would override the statutory or regulatory duties of any 
        existing entity, including Regional Fishery Management 
        Councils.''
    We understand that the Regional Planning Bodies do not have 
independent legal/regulatory authority. The point is that the CMS Plans 
they create then go to the NOC for approval and implementation by every 
agency throughout the federal government. This process is clearly 
stated in the ``Final Recommendations of the Interagency Ocean Policy 
Task Force'' (July 19, 2010. . .page 65)--
        ``Agencies would incorporate components of the CMS Plan into 
        their respective regulations to the extent possible. Adherence 
        with CMSP would be achieved through Federal and State agencies 
        and tribal authorities incorporating CMS Plans into their pre-
        planning, planning, and permitting processes, to the extent 
        consistent with existing laws and regulations. The CMS Plan 
        signatories would periodically review these processes and where 
        legal constraints are identified, would seek to remedy these 
        constraints, including by working with the NOC to evaluate 
        whether a legislative solution or changes to regulations are 
        necessary or appropriate.''
    This clearly states that CMS Plans will be implemented government-
wide, and that if new regulations are required to achieve the goals of 
the NOC, they will be pursued. We are not comforted by the boilerplate 
language about the process being ``consistent with existing laws and 
regulations''. If an agency implements the NOP/CMSP plans in a way 
which, in our view, conflicts with an existing law or regulation, our 
only option would be to go to court. As the Administration is aware, 
few entities have the resources to file court challenges on a regular 
basis. All ocean user groups, not just the seafood industry, would have 
little chance of preventing the imposition of CMS Plan regulations.
    In the end, this is the most critical point. Despite repeated 
rhetoric from the Administration that this is designed to be a bottom-
up, stakeholder driven process with no regulatory authority, a plain 
reading of the Implementation Plan reveals a federally-controlled, 
closed-door effort that will compel 27 different federal agencies to 
conform their regulations to comply with a regional ocean plan. Some 
have suggested adding an representative of the Regional Fishery 
Management Councils to each of the Regional Planning Bodies. The 
Administration has said yes, provided they are a federal, state, or 
tribal member of such. But suggesting the Councils need or deserve 
representation on the Regional Planning Bodies simply reinforces the 
fact that the RPBs will have regulatory authority over the Councils. If 
not, then why would the RFMCs need some sort of representation. 
Further, by specifying that an RFMC representative must be a federal, 
state, or tribal member, the Administration is further clarifying that 
the RPBs do not provide for true stakeholder participation.
WHO WINS?
    Nowhere in the NOP Implementation Plan does it clarify how user 
conflicts in the ocean will be resolved. If we embark upon a regional 
ocean zoning effort, inevitably multiple user groups will want to 
`claim' a particular area of the ocean, be it for fisheries, mineral 
resource extraction, renewable energy, recreational activity, or marine 
reserves. By what metric will a particular claim be awarded? Historical 
use of the area? Number of jobs created? Amount of money generated for 
the economy? National Security? Food Security? Least environmental 
impact?
    When asked this question at a CMSP workshop last year, 
Administration officials responded that ``science would decide''. But 
such a question is not wholly a scientific one. It is a social, 
economic, and even cultural decision that is far more nuanced. 27 
federal bureaucrats deciding who wins and where among multiple ocean 
users does not provide for the stakeholder and public participation 
necessary to make such difficult decisions. The failure of the NOP 
Implementation Plan to specifically address this inevitable dynamic is 
incredibly naive.
STATE EFFORTS
    Some have argued that our concerns regarding the NOP Implementation 
Plan are overblown as several states are already implementing programs 
in state waters that are meeting with success. While I am not familiar 
with all of these efforts, I am familiar with the Coastal and Marine 
Spatial Planning law of Washington state. Enacted in March 2010 but not 
yet implemented due to lack of funds (see below), the Washington state 
CMSP law provides many protections for commercial fishing and other 
user groups that are lacking in the NOP:
        <bullet>  Section 1 (3)(h)(i) Establish an ocean stewardship 
        policy that takes into account the existing natural, social, 
        cultural, historic, and economic uses;
           (i) Recognize that commercial, tribal, and recreational 
        fisheries, and shellfish aquaculture are an integral part of 
        our state's culture and contribute substantial economic 
        benefits;
    The Washington State measure recognizes existing uses and notes the 
``substantial'' economic benefits of such uses, including commercial 
fishing. About the only references to commercial fishing in the federal 
NOP relate to overfishing. In fact, given that we have now placed all 
federal fisheries under Annual Catch Limits as required by the 
Magnuson-Stevens Act and are rebuilding overfished fisheries, the NOP 
references seem outdated.
        <bullet>  Section 6. (2)(f) Protects and encourages working 
        waterfronts and supports the infrastructure necessary to 
        sustain marine industry, commercial shipping, shellfish 
        aquaculture, and other water-dependent uses;
    Again, Washington State's statute emphasizes the importance of 
sustaining commercial activities by ocean users, including investing to 
support these uses. The overall tone of the Administration's NOP is one 
of restricting current users.
        <bullet>  (5) If the director of the department of fish and 
        wildlife determines that a fisheries management element is 
        appropriate for inclusion in the marine management plan, this 
        element may include the incorporation of existing management 
        plans and procedures and standards for consideration in 
        adopting and revising fisheries management plans in cooperation 
        with the appropriate federal agencies and tribal governments.
    Paragraph 5 gives deference to the fishery management authority to 
determine whether to incorporate fisheries management elements into 
marine management plans. Fishery management responsibility is clearly 
expected to remain with the current decision making body. The NOP could 
result in fishery management councils developing management plans and 
RPBs developing CMS Plan components (say, establishing MPAs over 40% of 
an ecosystem as some advocate) that should remain solely under the 
purview of the relevant fishery management council. This is our concern 
about creating a second fishery management process--in this case one 
without fishery management expertise and without fishery participants 
involved in the decision making process.
        <bullet>  (6) Any provision of the marine management plan that 
        does not have as its primary purpose the management of 
        commercial or recreational fishing but that has an impact on 
        this fishing must minimize the negative impacts on the fishing. 
        The team must accord substantial weight to recommendations from 
        the director of the department of fish and wildlife for plan 
        revisions to minimize the negative impacts.
    Paragraph 6 is a complement to paragraph 5. It cannot stand alone. 
While paragraph 5 preserves the current fishery management decision 
making process, paragraph 6 makes clear that any action that affects 
fishing but whose primary purpose is not to manage fishing must 
minimize the negative impacts on fishing. There is no such 
consideration in the NOP for effects on fishing from CMS Plan elements.
        <bullet>  (7) The marine management plan must recognize and 
        value existing uses. All actions taken to implement this 
        section must be consistent with section 8 of this act.
    The language stating that a Washington State CMS Plan must 
``recognize and value existing uses'' is very helpful and supportive of 
current users. There is no such guidance in the federal NOP policy.
    If the NOP paralleled the Washington state law, I suspect you would 
face far less opposition to the NOP from commercial fishing 
organizations nationwide as well as other current ocean user groups.
THE COST
    In addition to the substantive concerns outlined above, we are also 
deeply concerned about how this overreaching and expansive effort will 
be paid for. The President's proposed FY13 Budget contains no budget 
for implementation of this new National Ocean Policy. Instead, the 
agencies charged with participating in implementation have stated that 
their efforts will be funded through their existing budgets and 
appropriated dollars because ``implementation of the NOP is consistent 
with [their] existing statutory obligations and appropriations.'' In 
other words, the Administration intends to funnel money away from 
congressionally-authorized and funded activities such as fisheries 
stock assessments and ecosystem research to support a new layer of 
federal bureaucracy. Ironically, funds will be diverted from the very 
activities that the NOP itself says need to be increased and improved!
    The Administration is implementing NOP with neither congressional 
authority nor with congressionally-approved funding. Given the absence 
of an NOP implementation line item we believe Congress should include 
in each relevant appropriations bill (covering all 27 agencies 
identified by the NOP) a prohibition on the use of funds within that 
bill for the implementation of the NOP.
CONCLUSION
    As we said earlier, we would prefer that the Regional Fishery 
Management Council process be exempted from this program. If not, then 
we request that the final NOP Implementation Plan categorically state 
that nothing in the plan will lead to either new or modified Federal 
regulations. If this is a collegial, voluntary planning process, as we 
have repeatedly been told, we are happy to participate. If this is a 
new Federal bureaucracy whose aim is to regulate virtually all ocean 
activities, then we prefer to opt out until such time as Congress has 
provided specific authorization for such a program. Thank you for the 
opportunity to testify today.

                         The Seafood Coalition

November 7, 2011

The Honorable Doc Hastings
Chairman, House Natural Resources Committee
U.S. House of Representatives
1324 Longworth House Office Building
Washington, D.C. 20515

Dear Chairman Hastings:

    The Seafood Coalition is writing to express its appreciation to you 
for holding two recent hearings on the Administration's National Ocean 
Policy (``NOP''), which includes the controversial ocean zoning 
component of Coastal and Marine Spatial Planning (``CMSP''). The 
testimony received at the Natural Resources Committee hearings 
highlights the need for Congressional action barring the Administration 
from continuing to divert appropriations from authorized programs to 
implement an ill-conceived NOP that is not authorized by Congress and 
that threatens fishing industry jobs.
    The Seafood Coalition is a broad national coalition that includes 
commercial fishing interests, seafood processors, and coastal 
communities. This broad-based group, which includes members from every 
region of the U.S., accounts for about 85 percent of the seafood landed 
annually in the U.S. We are a diverse group, but united in our 
opposition to the Administration's NOP. The Administration has turned a 
deaf ear to the seafood industry's concerns in implementing NOP, 
choosing instead to push ahead with a new ``top down'' bureaucracy 
empowered to develop plans and to restrict ocean uses through 
regulations issued under an array of oceans-related statutes.
    The concerns raised by the Seafood Coalition have been articulated 
previously by this organization. In May, 2008, the Coalition wrote to 
then-Natural Resources Committee Chairman Rahall requesting changes in 
H.R. 21, an ocean policy bill introduced in multiple Congresses and 
almost indistinguishable in its provisions from the NOP. The bill won 
little support over the past decade, and accordingly, made very little 
headway. This history suggests both that advocates of the NOP recognize 
that Congressional authorization is necessary and that they remain 
unwilling to work with the oceans community to develop a measured and 
economically sound policy.
    We highlight for Congress three specific concerns with the NOP 
initiative that can be addressed by prohibiting federal spending on 
this unauthorized program:
        1.  The NOP creates a federal ocean zoning regime that will 
        likely result in substantial new regulations and restrictions 
        on ocean users. The Final Recommendations of the Interagency 
        Ocean Policy Task Force report, which is incorporated by 
        reference into the NOP Executive Order 13547, establishes nine 
        regional planning bodies (``RPBs'') composed of government 
        entities and charged with developing ocean zoning plans. 
        According to the Task Force recommendations, ``The plans would 
        be adaptive to allow for modification and addition of new 
        actions based on new information or changing conditions. Their 
        effective implementation would also require clear and easily 
        understood requirements and regulations. . .that include 
        enforcement as a critical component.''
        2.  The NOP creates a new ``top down'' bureaucracy that 
        supersedes the ``bottom up'' regional fishery management 
        council system and other effective management systems.
    As noted above, the RPBs will be composed primarily of federal 
agency officials with some participation by state officials and tribal 
representatives. This contrasts with regional fishery management 
councils and the bodies responsible for other management programs 
established by the Magnuson-Stevens Act. The regional fishery 
management councils and other ``bottom up'' management programs which 
develop plans for managing fishery resources in federally managed 
waters, are composed largely of private citizens appointed by the 
Commerce Secretary. The NOP empowers the RPBs to manage activities in 
federal waters, including fishing activities, creating a confusing and 
duplicative fishery management system and usurping the jurisdiction of 
existing regional fishery management councils and other effective 
management bodies.
        3.  The federal government is currently diverting money 
        authorized for other purposes, including funds that are better 
        used for fishery survey research and monitoring programs, to 
        create the new NOP regulatory program. Without fully funded 
        fish stock assessment programs, fishery managers must be 
        precautionary and set lower harvest limits given less 
        information will be known about the size of fish populations. 
        Diverting money from important science functions of NOAA 
        Fisheries leads directly to job losses and lower incomes for 
        fishermen and processing workers and adverse economic impacts 
        for already struggling coastal communities.
    For these reasons, and more, the Seafood Coalition asks Congress to 
bar further diversion of fund from authorized programs to implement the 
NOP. Thank you for considering these views.

Sincerely,

Nils Stolpe for the Seafood Coalition
Seafood Coalition member organizations
Alaska Bering Sea Crabbers
Alliance of Communities for Sustainable Fisheries
American Fishermen's Research Foundation
At Sea Processors Association
Blue Water Fishermen's Association
Coos Bay Trawlers Association
Deep Sea Fishermen's Union
Directed Sustainable Fisheries
Fisheries Survival Fund
Fishermen's Association of Moss Landing
Garden State Seafood Association
Groundfish Forum
Monkfish Defense Fund
North Carolina
Fishermen's Association
Omega Protein, Inc.
Oregon Trawl Commission
Organized Fishermen of Florida
Pacific Coast Seafood Processors
Pacific Whiting Conservation Cooperative
Southeastern Fisheries Association
Southeastern Fisheries Association/East Coast Fisheries Section
Southern Offshore Fishermen's Association
United Catcher Boats
Washington Dungeness Crab Fishermen's Association
Washington Trollers Association
West Coast Seafood Processors Association
Western Fishboat Owners Association
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. LeBlanc. At this point we will 
begin Member questions of the witnesses. To allow all Members 
to participate and to ensure we can hear from all of our 
witnesses today, Members are limited to five minutes for their 
questions. However, if Members have additional questions, we 
can have more than one round of questioning. I now recognize 
myself for five minutes.
    Mr. Zurn, I am from the Federal Government, and I am here 
to help you. Does that make you feel good?
    Mr. Zurn. Yes, sir. That does make me feel good.
    [Laughter.]
    Dr. Fleming. If I were you, I would be very concerned. You 
know, I am saying this tongue-in-cheek, but we could go through 
many examples of where well-intentioned Federal Government 
agencies, Congress, and even the White House have been very 
well intentioned, and made things a lot worse. And I gather 
from your testimony, and from some of the others here today, 
that there is a whole list of concerns about the impact of this 
National Ocean Policy, which sprang up all of a sudden from the 
Oval Office without any involvement of Congress, whatsoever.
    So, what do you see as the most egregious, the most 
significant negative impact from the implementation of this?
    Mr. Zurn. Well, sir, as I mentioned, we just concluded a 
several-year process in the State of California where we were--
the recreational fishing community was pretty much excluded and 
ignored in much of the decision-making process. And as I 
pointed out, in other States we were actually, by statute, 
included, involved, and had a seat at the table. My concern is 
in this process so far, even though through numerous attempts 
to be involved, to have input, and to be--to have a seat at the 
table, we have pretty much been--largely been ignored.
    Our goal is that--we understand that this very much looks 
like another layer of bureaucracy. Our goal is that, with 
recreational fishing, that our impact on the environment is far 
less than some of the other things that are included in this. 
And we just feel that it is going to very much continue to 
limit the recreational fisherman's ability to have access----
    Dr. Fleming. Sure. So, really, those who are affected the 
most under this policy, in your view, would have little or no 
say into that, I think is--you are saying is the most 
significant part of this.
    Mr. Zurn. Yes, sir.
    Dr. Fleming. And I certainly understand that. Mr. Mannina, 
I am very interested in your views. You say that, in essence, 
this is unconstitutional. This is the Executive Branch reaching 
out of its scope and taking up perhaps the Legislative Branch's 
authority. And I tend to agree with you on that.
    One of my concerns--and I think you outlined this very 
clearly--is what happens on a farm in Idaho, in theory, would 
be involved in this National Ocean Policy. So people who think 
that this is only about oceans are going to be sadly mistaken 
when they see this, if it is ever implemented.
    So, if it has such broad affect over the Nation, the 
rhetorical question here--and I am going to get to my real 
question--is then, why is it that all of that power be vested 
in one person, in essence, which is the President of the United 
States?
    But let's go a step further. We now have government having 
completely taken over our financial industry. The government 
has now completely taken over the health care industry. And we, 
Congress, in the process, have abdicated much of our powers to 
the Executive Branch. We have thousands of people writing 
regulations that we in Congress have no idea what they are 
going to look like very soon. Even the Independent Payment 
Advisory Board, where you have 15 unelected individuals, will 
be making the major decisions about health care.
    So my question to you, sir, on a constitutional basis, is 
this not really just, again, a conglomeration, if you will, a 
formation of all the power into one office, and certainly one 
person, making Congress irrelevant? And trust me, I have a good 
job back home I am happy to go to. But if I am up here, I want 
to exercise the powers for my constituents that they sent me up 
here for. I would love to have your reaction to that.
    Mr. Mannina. Thank you, Mr. Chairman. I do believe that the 
Executive Order and the National Ocean Policy are beyond the 
Presidential authorities vested in either the Constitution or 
by statute enacted by the Members of this Congress.
    If this policy is to have legal force and effect, I believe 
it is up to you, the Members of Congress, to enact legislation 
to give the administration the power. If you do not do so, I do 
not think they will have that power. And I must say, as a 
practicing lawyer, if you do not, I expect that those of us who 
do this will enjoy many, many years and billable hours 
litigating this.
    Dr. Fleming. So you are saying this is the enrich lawyers 
policy.
    Mr. Mannina. And there is nothing wrong with that.
    [Laughter.]
    Dr. Fleming. I well understand that. Well, again, I would 
just--it seems to me, just in closing in my questions, that 
this is again another attempt--and we go back to the energy 
policy, with cap and trade--where the President, being unable 
to do through Congress what he would like to do, and those who 
maybe support him, attempt to do a run-around Congress. And, 
unfortunately, that is not the way the Framers of the 
Constitution intended this.
    So, with that, I yield to my good friend, Mr. Sablan, 
Ranking Member, for five minutes.
    Mr. Sablan. Well, thank you. Thank you very much, Mr. 
Chairman.
    Mr. Gibson, good morning. Mr. Gibson, could you tell us 
under what authorities is the administration conducting marine 
spatial planning?
    Mr. Gibson. Well, I understand that the President has the 
authority to do this through Section 3 of Article 2 of the U.S. 
Constitution. That is what my lawyers told me.
    Mr. Sablan. So you are relying on lawyers, and there is 
nothing wrong with that. I think there is one right next to 
you.
    Mr. Gibson. I know.
    Mr. Sablan. So we have also heard a lot today about how 
government regulation is threatening fishermen and our 
fisheries. What do you consider to be the most significant 
threats today that would cause fishermen to pull up empty 
hooks?
    Mr. Gibson. Well, we are doing a great job rebuilding 
fisheries, but we are doing a terrible job managing the habitat 
that they depend upon and the water that they swim in. 
Declining habitat, declining water quality, those are certainly 
the two greatest threats to recreational fishing.
    Mr. Sablan. Yes, I come from an area where I grew up where 
I could expect that four dinners a week would be fish. One fish 
today, one fish. But there are also people in my island who--in 
my place, where a certain family is, for some reason, does not 
catch a certain fish. So there is always--other families would 
have access to the fish, and they shared, they do this by 
sharing. And so, that is--I am not sure if it is conservation, 
but it is a great program, actually.
    So, let me ask--the staff want me to ask here. In your 
testimony, Mr. Gibson, you said that wave energy, agriculture, 
they are all coming, and we must have a plan to develop and 
site this industry responsibly. If we don't, chaos will ensue. 
If we don't, chaos will ensue, and fishermen will lose out. Can 
you give us an example, provide us an example from your own 
experience--that would be great--where the lack of 
comprehensive ocean planning caused fishermen to be left behind 
in the initial decision-making process?
    Mr. Gibson. Yes, sir. A few years ago the town of Palm 
Beach wanted to dredge and fill about--I think about five miles 
of beach where I grew up. They never asked us if that was OK 
with us. This is where I catch bait, this is where I surf, 
fish, this is where--I mean, the reef support, all the--they 
are the nursery habitats for the things we catch offshore. They 
were going to dredge within 200 feet of a coral reef, a 
Federally protected essential fish habitat. And we had to sue 
them. And it took, I think, over five years of fighting them to 
stop this project. We were never given a chance to voice our 
concerns, and we were bullied for voicing them.
    And I will give you one more pending example. You know, 
North Carolina and South Carolina are very, very aggressively 
pursing development of wind energy offshore, and we welcome, 
you know, this new clean energy. It is just we just want to 
make sure it is put in the right place, not where we are 
fishing.
    Mr. Sablan. And so, see, planning works, because when I was 
growing up, dinner was four times a week is fish. If I choose 
today, I can have dinner three times a week fish, of course, 
you know, growing population and the increasing fish 
population. But the planning is there. And the regulation, 
unwritten and not Federalized, is actually--we regulate 
ourselves among ourselves.
    So, Mr. Gibson, how--you earlier said you had to hire 
lawyers. And how long were you involved in lawsuits to prevent 
massive dredge and projects that--at Florida's--can investing 
in a National Ocean Policy actually save taxpayers millions of 
dollars? And if so, how?
    Mr. Gibson. Well, for example, the issue of dredging--it is 
one of the themes that perpetually emerges as a threat. And 
usually for these so-called beach nourishment projects, they 
are just nothing but perverse subsidies that I hope some of 
these gentlemen will address. What we need is a comprehensive 
sediment management plan for the entire region, instead of, 
``Oh, we got a hot spot here, dredge here. Oops, that was a 
coral reef we just trashed.'' ``Oh, that was where that guy's 
favorite spot to shoot groupers,'' or whatever.
    You know, if we can take--instead of having to deal with 
these projects project-by-project, issue-by-issue, slogging 
through the quagmire of Federal agencies and permitting, if we 
can come up with a plan that addresses these proactively, these 
recurring issues proactively--and I believe we can through the 
National Ocean Policy process and the regional planning 
bodies--it will save everybody a ton of time and money, from 
the government down to a little guy like me.
    Mr. Sablan. Yes. And actually, just a comment, a short 
commentary to Mr. LeBlanc, because I was--earlier I said this 
Laolao Bay. We are actually spending money to do something to 
prevent runoffs into Laolao Bay, because it is such a beautiful 
ocean area of corals and fish, and we want to protect that from 
runoff. So spending money is--on protecting the oceans is 
actually very good policy, sir. And thank you. My time is up, 
Mr. Chairman.
    Dr. Fleming. The gentleman's time is up. Next is Mr. 
Southerland for five minutes.
    Mr. Southerland. Thank you, Mr. Chairman. You know, I have 
been amazed, since I have been here for 15 months. In the 15 
months that I have been here, we have seen the President, in 
his involvement in the Libyan action, which was a violation, I 
believe, of the 1973 War Powers Act. We have seen a violation 
of the Constitution in recess appointments, when we weren't 
[sic] in recess.
    The--we have now learned that the health care bill, the 
violation of Rights of Consciousness--the health care bill, 
which is the signature piece of legislation that the President 
doesn't ever want to talk about any more, certainly when he has 
a joint session of Congress doesn't even mention, and because 
its constitutionality is so subject to questioning, it will 
probably be the most viewed and followed Supreme Court case in 
our Nation's history coming up here very, very shortly.
    I am amazed that, as you stated out, sir, that, you know, 
the very shaky ground that the Oceans Policy is on--I mean we 
are seeing a pattern here. And I think if it walks like a duck 
and it quacks like a duck, it is a duck. I think the American 
people can understand that. I don't think that is complicated. 
I think that is common sense.
    It is interesting, Mr. Gibson--and I am from Florida, as 
well--your trust in--that government can, since it has created 
this chaos that we find ourselves in, the waste of money in and 
of itself--and I could really tell all I need to tell about you 
or anybody else in this room by just looking at your check 
registry. I can see the priorities in your life. I can see what 
matters to you. I can see how benevolent you are. I can see how 
much money you spend on your hobbies. I can tell everything 
about you. And when I look at the United States Government's 
check registry, it is pathetic.
    And so, I am curious. How does a common sense individual 
like yourself--you seem to be--place so much trust in a Federal 
Government whose check registry and whose record on, in the 
last three years, on constitutionality, or the question 
thereof, how do you place such trust in such a monstrosity that 
has grown out of control?
    Mr. Gibson. I have to, because the existing system----
    Mr. Southerland. And why do you have to?
    Mr. Gibson. Because the existing system is killing me.
    Mr. Southerland. You understand the existing system is what 
you are wanting to add to? That is like saying bad is hurting 
me, so therefore I am just going to trust more bad.
    Mr. Gibson. The point of the National Ocean Policy is to 
streamline and harmonize----
    Mr. Southerland. No, no. No, sir. No, sir, it is not. It is 
not. Because at no point in time in the National Ocean Policy 
does it do away with any other institutions that are currently 
creating your headache.
    Mr. Gibson. It brings them out in the light of day.
    Mr. Southerland. Sir, they can come out in the light of day 
now. We don't need the Federal Government to tell us, ``Turn on 
a light.'' We don't need the National Ocean Policy or the 
Federal Government to tell two States they can communicate and 
talk. That is common sense.
    Please tell me you don't have to trust the Federal 
Government to tell you and another fishing buddy that you can 
talk. And if it applies to individuals, it applies to States. 
We do not need the Federal Government, and we cannot trust the 
Federal Government to do the very basic things in our life that 
God gave us the common sense to do. And I am blown away, blown 
away, in your trust of the Federal Government.
    Mr. Gibson. This is a managerial directive from the 
administration to make these agencies talk.
    Mr. Southerland. To make these management--OK. We are never 
going to agree on that, because I can tell you this. When 
Lubchenco comes before this committee and she states that the 
oceans policy creates no more regulations, none--in a 
congressional hearing--none, and then the Federal--and the 
oceans policy itself clearly states on page 30 that it will 
create more regulation, I will ask you the same question I 
asked Ms. Lubchenco. Who is wrong? Is the President wrong? Or 
is Mrs. Lubchenco wrong?
    Mr. Gibson. It is not a question of whether there is going 
to be new regulation. Agencies and lawmakers such as yourself 
promulgate new----
    Mr. Southerland. No, no. We are not going to promulgate new 
regulation on fishermen. I can tell you that right now. We are 
not going to do that on this side of the aisle.
    Mr. Gibson. It is the basis from which those regulations 
emerge. And this gives us a seat at the table through our 
council representation on the regional planning body, to make 
sure that these regulations are common sense and fair.
    Mr. Southerland. So my point to you is, does the national 
policy--does the oceans policy create new regulations on the 
American people?
    Mr. Gibson. It has no authority to do so.
    Mr. Southerland. Well, then, why does the President say he 
is on its website, that it does create new regulation? So you 
are saying the President is wrong?
    Mr. Gibson. I am not familiar with the page on the website.
    Mr. Southerland. It is 30. The American people can go see 
it. OK? Ask Ms. Lubchenco. She disagrees with the President, 
obviously.
    You place incredible trust, and I will say this in closing. 
You need to tread lightly, because this beast up here, a 
government big enough to meet all your needs, is a government 
big enough to take every single thing you own. I yield back.
    Dr. Fleming. Next, Mr. Faleomavaega for five minutes, sir.
    Mr. Faleomavaega. Thank you, Mr. Chairman, for calling this 
important hearing. I think it is most appropriate. But this 
issue did not just come about yesterday. This issue has been 
around for years.
    As I recall, I noticed, with the exception of Mr. Zales and 
Mr. LeBlanc, we have some very expert witnesses who are members 
of the legal profession. I think I recall one of the 
Shakespearian plays that I think it was mentioned--I don't know 
which Henry that was--but the first thing we do, we kill all 
the lawyers. I meant that as a sense of humor to our 
distinguished attorneys here. First thing we do is that we kill 
all the lawyers. I think our attorneys will have a feast if 
this ever becomes challenged and have to be taken before the 
courts.
    Mr. Chairman, and to our distinguished experts, I have 
always taken the view always as a challenge of establishing a 
balance between conservation and the commercial and the 
recreational interests, especially as it relates to the marine 
resources that are in the oceans. Regulation is to assure 
continuity of the species.
    I recall years ago the swordfish industry in New England, 
some 150 of our fishing boats on the New England had to go to 
Hawaii, because there was no more swordfish to fish in the New 
England States. The question of conservation versus the ability 
of continuing the--providing the species of fish that is 
helpful not only to the economy of those who rely on commercial 
fishing as well as recreational, I think there is no question 
about that.
    The question that is part of our national interest to 
establish a national policy on oceans, as I--am I correct in 
some of the figures that were given? We are talking about some 
1.5 million square miles of oceans, whether it be the Atlantic 
or the Pacific coast, up in Alaska, quite a bit, the effect 
that--our entire fishing industry, we are looking at about 1.5 
million people whose--workers that depend on the oceans.
    I can say a little bit--I think I know a little bit about 
the ocean. I come from a little place in the South Pacific, the 
largest ocean in the world, if you want to put it in those 
terms.
    So, yes, I want to share with the--our expert panel here, 
in terms of the key factors related to our National Ocean 
Policy that the President felt needed, because it appears to 
me--because Congress has not moved in establishing a National 
Ocean Policy legislatively or statutorily. And, if I am 
correct, as I read here, the National Ocean Policy does not 
alter any government authorities, and does not require new 
legislation to be implemented. The National Ocean Policy does 
not restrict any ocean, coastal, or Great Lakes activity. Our 
National Ocean Policy does not levy any fees or licenses or 
taxes.
    I can go on with some of the other things that are provided 
here. It is my understanding before the President issued this 
Executive Order there were some 5,000 public comments that were 
submitted to the administration for consideration. And about 
400 contributions, in terms of all the mix that went into ideas 
and things that were brought in.
    I noticed that one of the gentlemen said that they were 
never consulted, or they never had an opportunity to sit on the 
table to be consulted. Well, I don't know what happened in the 
consultation process.
    But I just want to say that as much as we like to hammer 
the government as if the government is the source of all evil 
and all the problems that we have in our government, I would 
like to submit also that there is a very, very important role 
that government plays when you are talking about the safety. 
When you are talking about all these things, you have to take 
those into consideration. But at the same time we have to also 
understand, in a democracy and free market system, that for 
economic growth we have to allow the private sector to prosper 
just as much as any other activities, as it relates to the 
resources. Tremendous resources that we have in our oceans.
    So, I see my time is almost up, and I had 50 questions I 
wanted to ask our panel, Mr. Chairman. But I do want to say 
that I appreciate the different points of view about this 
issue. But I happen to be one who says that the President has 
taken this initiative and his leadership in doing this, simply 
because Congress has not acted. The Pew Foundation report that 
was given years ago, major, major report, but we have not acted 
on any of these important things. So maybe that is the reason 
why the President has taken this initiative by issuing the 
Executive Order, to complement. Not to compete, not to take 
away anything that we have already taken by law in that 
circumstance.
    Mr. Chairman, I know my time is up, but I will try for the 
second round. Thank you, Mr. Chairman.
    Dr. Fleming. The gentleman yields. Next, Mr. Duncan from 
South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. And I don't know how I 
can say it any better than my colleague from Florida has said 
it already. But I want to continue that discourse a little bit, 
Mr. Gibson, because I feel like you need to go back and read 
the Federalist Papers, read the Constitution, read what our 
Founding Fathers envisioned for America. And I will refer in a 
document known as the United States Constitution, Article 1, 
Section 1, says, ``All legislative powers here and granted 
shall be vested in a Congress of the United States, which shall 
consist of a Senate and a House of Representatives.''
    I go on to read Article 2, Section 1, the executive powers 
of the presidency. And the executive power--the Executive 
Orders that he assigned, they are not listed in here. So we 
have a President who has created 106 new regulations that cost 
the American taxpayer 46 billion additional dollars right 
there.
    Looking at Executive Order 13547 that creates this 
particular issue that we are talking about today, that is a--
America, that is looking today--take a look at it. We 
continually see the over-reach of the Executive Branch that 
erodes the freedoms of Americans.
    I think about this agency in context with what I see going 
on inside the Beltway and in Washington, D.C. I stood in the 
back of the United States Capitol the other day and I counted 
nine construction cranes in the degree of the horizon that I 
could see, just looking down the Mall. Nine construction 
cranes.
    Now, why is that important? Because it made me start being 
aware, as I rode around Washington, how many construction 
cranes I see inside the Beltway. And why is that important? It 
is important because I don't see them in Greenville, South 
Carolina, or Anderson, South Carolina, or Charlotte, North 
Carolina, or Orlando, Florida, or Nashville, Tennessee, or 
Dallas, Texas. But I see them here. Why? Why is that important? 
Because this government is growing so large based on this kind 
of stuff coming out of this administration, that government is 
growing. And the support industry, the office buildings, the 
apartment buildings, the new buildings that Department of 
Homeland Security and other places--this government is growing 
so large, and we are $15.5 trillion in debt.
    So, I see this particular issue, which I believe is the 
furtherance of this administration's desire to adhere to the 
United Nations, and the laws of the Sea Treaty, because the 
regulation itself allows the Federal Government to regulate 
waters that flow into the oceans, all the way up through the 
State of Louisiana and through the State of Florida and through 
the State of South Carolina, all the way across the Midwest to 
the Great Lakes, to regulate those with--and it says here that 
States may opt out of serving on the RPB.
    However, the RPB will continue with the zoning plan, 
regardless of the States' participation, regardless of--where 
are the states' rights in this? Where is the proper role of the 
Federal Government, as based on the United States Constitution, 
and where is the States' rights with regard to the waters 
within that State? There are waters that begin in South 
Carolina that flow into the ocean, and the State of South 
Carolina ought to have some jurisdiction over its own waters.
    Now, it says that States can opt out of this, but the 
Federal Government is going to continue with their zoning plan, 
regardless of that. And this is true, even if all the States in 
the region decline to participate. ``Any State which agrees to 
participate in the planning process will be required to make 
sure all State-permitted activities meet the guidelines and 
goals of the zoning plan.'' Now, where I come from, that is an 
unfunded mandate from the Federal Government to the States to 
comply with this policy, against the States' wishes many times.
    So, Mr. Chairman, I don't have any questions for the 
panelists. I believe Mr. Mannina summed it up very well. Thank 
you for your comments earlier. I think America needs to wake up 
to Agenda 21, the United Nations, and this administration's 
violation of our liberties, violation of the proper role of the 
Federal Government and the State governments. This is an 
epitome of that. This is the prime example of a Federal 
overreach with regard to the States. And with that, I yield 
back.
    Dr. Fleming. I thank the gentleman. And I think we have 
interest in another round of questioning. So if our witnesses 
are willing, we would love to start back again.
    Mr. Gibson, I would like to return to you. And I am going 
to move away from the constitutional and legal arguments. But I 
would like to tell you that your optimism of what the Federal 
Government can do is very inspiring, it really is. But let me 
tell you my background.
    I am a physician. Went into private practice in 1982. And 
with each new rule, law, and regulation that came out since I 
started my practice, particularly with regard to Medicare, SGR, 
CLEA, RBRVS--all of these are acronyms that probably are not 
familiar to you. But I can tell you, with each and every one of 
them, it made my life and the life of my patients more and more 
difficult, and it cost the Federal Government a lot more money.
    So, I have to tell you I came to Washington somewhat 
cynical about what government can do for you, and certainly 
what it does to you. But I did keep a little bit of an open 
mind. But since I have been here three-and-a-half years, I can 
tell you that that little open mindedness has closed very 
rapidly. I am very cynical about what the Federal Government, 
apart from the Constitution and apart from law--every time the 
Federal Government gets involved with new laws and regulations, 
we just simply see more problems for the American people, and 
more cost for the taxpayer.
    But I want to turn to you, Mr. Mannina, one more time 
about, I think, an important question. And that is, what, if 
any, are the enforcement mechanisms to this policy?
    Mr. Mannina. The Executive Order directs each Federal 
agency to implement the national policy. And the President does 
have the authority to direct his agencies to do things. That 
said, however, I think that the direction falls outside his 
legislative authority, delegated authority. He can tell an 
agency what to do, but I don't think he has the power to tell 
them to do the things that the National Ocean Policy asserts. 
Without this Congress--as Mr. Faleomavaega said a moment ago--
without this Congress taking action to authorize it, I don't 
think it is a properly delegated legislative authority.
    Dr. Fleming. But you must well understand that we have seen 
the President do a lot of things that we don't think he has the 
power to do. You just heard Mr. Southerland talking about 
launching an attack on Libya without even consulting Congress. 
We feel like that is a direct violation of the Constitution, 
and overreach of power.
    So, my question to you, barring, you know, some sort of 
litigation that goes to the Supreme Court, is it, in fact, 
possible and perhaps likely that the President will attempt to 
enforce the National Ocean Policy?
    Mr. Mannina. The Executive Order is quite clear that 
Federal agencies are directed to implement the National Ocean 
Policy. So the answer to your question is yes.
    The secondary question you are asking, sir, is will there 
be litigation, and I think there is no question about it. I 
would be foolish to predict the outcome. I mean the Supreme 
Court, distinguished men and women, disagree by five to four 
votes frequently. But I think there is a reasonable case that 
can be made that this is beyond the President's authority to 
execute the laws, because I don't think you have delegated that 
authority to him, sir.
    Dr. Fleming. So, short of a constitutional question, and 
all the litigation that could derive from that, it is quite 
possible that the President, acting through the agencies, could 
implement a lot of policies that could be very harsh and 
harmful to a lot of people, damaging a lot of Americans, until 
the question is settled.
    Mr. Mannina. There is no question this could be 
implemented. And I think I will leave to you gentlemen and your 
colleagues the decision as to whether it is wise or unwise. But 
I will tell you that I think that it effectively amends a 
number of statutes. You laid out a management program, for 
example, the Magnuson-Stevens Act. That is effectively amended 
through the National Ocean Policy. Maybe that is what you want 
to have happen, maybe it is not. But as someone who worked on 
the Magnuson-Stevens Act for many, many years, I have always 
been in favor of the congressional process to outline the 
statutory--the delegated statutory authorities.
    Dr. Fleming. Right. And again, doubling back to my original 
question--and that had to do with the fact that as we went 
along with Medicare and more and more governmental involvement, 
the more headaches, difficulties, and problems for the American 
people, the taxpayers, the physicians, and patients. And so I 
came to Washington hoping that we would reverse that, and move 
back to days when things actually worked once again.
    And in fact, what happened was we had Obamacare, which 
doubled down on that. And I would love to show you a chart 
today of what Obamacare will look like, in terms of the many, 
many different layers of bureaucracy. And Mr. Mannina points 
out very clearly that though there may not be constitutional 
authority, that in fact, many of these policies will be carried 
out.
    I do have one quick question, though, for you, Mr. Gibson, 
that is kind of a housekeeping matter. You note that a 
representative of the Fishery Management Council may be able to 
sit on the regional planning bodies. While I understand this 
announcement was made at the recent meeting of the council 
chairman, have you anything in writing confirming that?
    Mr. Gibson. No, sir. But I have been led to believe that 
that is true. Best of my knowledge, that is true.
    Dr. Fleming. OK. Now you understand that a lot of people 
are led to believe a lot of things in Washington that don't 
come true. So I would challenge you that, before you make that 
statement again, that you get it in writing.
    With that, my time is up. And I believe Mr.--oh, I am 
sorry. Mr. Markey is now recognized for five minutes.
    Mr. Markey. Thank you, Mr. Chairman. Mr. LeBlanc, the House 
has passed legislation in this committee's jurisdiction that 
would open the Bristol Bay and the Aleutian Islands in Alaska 
to oil drilling. The crab group of independent harvesters who 
have joined your testimony today and other fishing local and 
Tribal organizations from the Bristol Bay area oppose oil 
drilling in these incredibly important fishing areas.
    In 2008, Brent Paine, the Executive Director of the United 
Catcher Boats suggested that areas in the Eastern Bering Sea 
that are more valuable could be zoned to not allow oil and gas 
development.
    Mr. LeBlanc, do you oppose the Republican legislation to 
open up the Bristol Bay and Bering Sea to oil drilling?
    Mr. LeBlanc. Thank you, Mr. Markey. Yes. United Catcher 
Boats has expressed its opposition to opening up those areas to 
oil and gas, both to this committee as well as to our 
colleagues--your colleagues on the Senate side.
    Mr. Markey. Thank you. If oil drilling does move forward in 
these areas, don't you think the Alaskan fishing industry will 
want to have a say in how, where, and when that happens?
    Mr. LeBlanc. Yes, and I believe we do.
    Mr. Markey. Do you trust the Bureau of Ocean Energy 
Management will take care of Alaskan fishermen, even if your 
needs are in conflict with the needs of the oil industry?
    Mr. LeBlanc. Well, I don't know that I would say I trust 
them to inherently take care of or address commercial fishing 
concerns, I don't believe that a regional planning body would 
do so, either.
    Mr. Markey. So, I think that we know that geologic oil will 
win out over fish oil, in my opinion, unless we have something 
like a National Ocean Policy and the regional planning bodies 
that it will create to bring stakeholders together to work 
through these conflicts is in place.
    Because there is a saying in Washington, an old saying, 
that if you are not on the table you are on the menu. And when 
it comes to our Nation's oceans, more and more guests are 
coming to dinner. We need to ensure that fishermen will always 
have a seat at the table. And the National Ocean Policy 
provides the recipe to help us to do that.
    Following a decade of bipartisan discussion and stakeholder 
engagement, including countless recreational and commercial 
fishermen, President Obama established the first-ever National 
Ocean Policy in July 2010. Creating such a policy was a 
cornerstone of the 2004 recommendations of the President Bush-
appointed Commission on Ocean Policy. Now, in March 2012, 
following even more public engagement, the draft National Ocean 
Policy Implementation Plan is open for public comment.
    Today, the Majority is holding a hearing which appears 
aimed at denouncing the impact that a not-yet-final plan will 
have on fishermen. This is like casting your net before the 
boat has left the dock, or even has all the fishing gear 
aboard. Recognizing the important role that fishermen play in 
our national economy and our national identity, the 
administration has responded to the concerns of fishermen as it 
has worked to finalize its draft plan. They announced the 
Stevens Act and all relevant State and local laws--let me 
repeat what has been clearly stated by numerous Administration 
witnesses during three previous hearings in this committee. 
This policy does not supersede existing authority or create any 
new regulations.
    Implementing an ocean plan will optimize these existing 
efforts to protect and restore the ecosystems that fish and 
fishermen depend on. Fishermen flourish when fish flourish. The 
National Marine Fisheries Service estimates that rebuilding 
America's ocean fish populations will provide an additional $31 
billion in annual sales, and create 500,000 new American jobs.
    Protecting America's fisheries will help create jobs and 
strengthen U.S. food security. Currently, the United States 
imports 80 percent of its seafood. Growing uses within our 
ocean and coastal areas, coupled with a changing climate, are 
placing significant pressures on our ocean resources. The 
National Ocean Policy will help build a secure domestic seafood 
system to sustain jobs here at home. We need less focus on fear 
mongering and more focus on supplying fish mongers. 
Implementing the National Ocean Policy will promote vibrant, 
sustainable fisheries, so that we will have American fish 
caught by American fishermen on the table now, and in the 
future.
    I thank you, Mr. Chairman.
    Dr. Fleming. The gentleman yields back. Next, Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman. As a 
delegate from the territories, one of the most enjoyable thing 
I do here is watch the delegate from the District of Columbia 
argue that the Federal Government really has no business in 
trying to run the affairs of the government or the District of 
Columbia. I just hope that my colleagues here who are saying 
this today would listen to that lady fight for her people. 
Because it works, if it is in their favor. But when it is for 
other people, it is the other way around, that the Federal 
Government has business in local affairs of a State government. 
And, in this case, the District of Columbia.
    This is rambling. But, you know, delegates are supposed to 
stay in the middle, make no noise, and survive, but I can't 
just continue to allow the ramblings.
    The--there was in 1981 Executive Order 12291 that--that was 
President Reagan. When he similarly sought to achieve greater 
regulatory consistency across the Federal Government with the 
stated goal to reduce the existing burden of existing and 
future regulations. While that may be different from the 
National Ocean Policy, it attempted to accomplish--goes to 
recreation of new mechanism structures and processes in the 
Office of Management and Budget then. And, you know, lawyers 
from President Reagan's Administration felt that he had the 
authority to do that.
    And just like as President Reagan used his constitutional 
authority to harmonize regulatory consistency across the 
Federal Government, let me make it clear that President Obama 
is utilizing that same constitutional authority as a basis for 
directing agencies to get engaged in the CMSP process.
    As the sole constitutional officer responsible for the full 
suite of ocean-related legislation to be executed, the 
President is just--is responsible. It is his duty for using his 
authority to ensure that agencies are not isolated from one 
another, like Mr. Gibson said. So agencies can talk to one 
another and have appropriate mechanisms in place to tackle 
complex cross-jurisdictional public policy problems, because we 
don't have here in the United States what we have in my home, 
where we don't need to regulate it, because families know their 
responsibilities, that that kind of fish is not for us to 
catch, it is for the others. We talk to one another. And we 
need some regulation in how this complicated Federal 
Government--I am telling you, this is complicated.
    But I am going to go back to Mr. Gibson, and ask him. Mr. 
Gibson, much of the fear generated around the National Ocean 
Policy is a concern that the intent of the policy is to create 
additional restrictions on traditional ocean users such as 
fishermen. Can you elaborate, sir, on your thoughts as to why 
there was a closure of Federal waters to fishermen in the Gulf 
of Mexico last year?
    Mr. Gibson. Sure. It was the result of a conflict between 
oil and gas development and fishing, and an absolute lack of a 
plan to--at that time the Mineral Management Service ignored 
warnings about the various safety devices that were, obviously, 
not so safe. And it was because of an absence of a plan and 
coordination across state and Federal agencies to respond to 
such a disaster. And it was just economically devastating. I 
can't--you know, I don't think anyone--I can't imagine why 
anyone who lived through that would be opposed to the National 
Ocean Policy.
    Mr. Sablan. So can you share the reasons why this policy 
represents a positive change from what existed before?
    Mr. Gibson. Sure, sure. I mean, you know, Mr. Fleming asked 
me if I had anything in writing. Well, again, my attorneys told 
me that the States will have a seat at these regional planning 
bodies. So I am going to take them for their word; I don't pay 
them to lie to me.
    But, you know, it is--you know, me, or Captain Zales, or 
anybody else like us, you know, if we go up to MMS and say, 
``Hey, we are worried about that thing blowing out and keeping 
us off the water for months, if not years,'' or, you know, 
impacting our businesses for decades on down the line--you 
know, as a side note, I was a child working in Alaska when the 
Exxon Valdez happened, I remember that quite vividly--you know, 
they would have just ignored us or laughed at us, or both.
    So, you know, this gives us a chance to sit down and make 
our concerns heard. And in the context of drilling, you know, I 
am not opposed to it, but I want to make sure it is done 
safely.
    Mr. Sablan. Yes, and I agree. I learned--with Mr. Markey 
and what he said earlier, that if you are not on the table you 
are on the menu, I actually learned that first from Mr. 
Faleomavaega. Because, as delegates, we need to have a voice 
share, and we just speak out as loud as we can, because nobody 
really listens to us. But, man, we are always making noise.
    And so--but thank you. Thank you all for your different 
point of views. And, Mr. Mannina, if we are going to get rid of 
lawyers, as Mr. Shakespeare said, Eni is one of those. So he 
meant that in well-intentioned.
    Mr. Mannina. Thank you, sir.
    Mr. Sablan. No, thank you. Thank you very much, Mr. 
Chairman. Thank you.
    Dr. Fleming. The gentleman yields back. And next is Mr. 
Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, I think it is great that--
we need more doctors here in the Congress, because your great 
mission in this life is to heal, and not to conduct 
confrontations in all of this. But I do want to thank you for 
giving us this second opportunity to raise some questions, 
hopefully, and--as part of the dialogue.
    I--Mr. Chairman, I am still learning how to speak English. 
So, in the process, I do want to associate myself with the 
comments made earlier by the gentleman from Massachusetts, our 
Senior Ranking Member of our committee, Mr. Markey, because I 
think he really put it right on the nail--is it the hammer and 
the nail, or the nail and the hammer--in terms of exactly the 
whole basis of how this policy, the National Ocean Policy, was 
developed. It didn't just come yesterday from Obama's brilliant 
thinking. This process has been ongoing, even from the time, as 
I recall, from President George W. Bush. This is how the whole 
thing initiated--was initiated.
    And, like I said, I think one of the reasons why the 
President has taken this initiative to, by Executive Order, do 
this, is because Congress has failed for the last 10 years to 
come up with a national policy, by statute, on how to look at 
the importance of why the oceans is indeed a very, very 
important part of our ecosystem, to be sure that we look at the 
situation.
    Right now, I have in my own district a proposal by NOAA to 
expand one of the national sanctuaries that is based in my 
district, five additional sites that NOAA has now developed in 
the past couple of years. And I raised some serious questions. 
The questions about marine protected area--that always seems to 
be the magic word, because immediately, my fishermen, and 
everybody in the fishing industry, ``What, does this mean that 
we cannot go fishing there,'' because the livelihood of our 
fishermen depends on this special area.
    So, whether it be in my little district or throughout the 
country, as I notice, I think this has been the common concern 
by members of our panel who represent our fishing industry, and 
I absolutely--I support the concerns of our commercial 
fishermen, recreational fishermen, to make sure they have 
access to the fish that provides for their living.
    So I--and I think I go back to my initial statement, Mr. 
Chairman. We have to strike a balance, just as if--as a matter 
of principle, there seems to be a little disagreement with my 
colleagues about how the whole--this whole government came 
about.
    Now, I realize--and if I am correct, Mr. Chairman, my 
limited readings about the Founding Fathers of our country--
purposely, purposely established a three-branch government as a 
divided government. There was no intention that we are going to 
have one party, one government, one religion, because our 
Founding Fathers did not trust the nature of man. You know, one 
little saying, that power corrupts--absolute power corrupts 
absolutely. We are not going to have any more kings or emperors 
and all this sort, so that the legislature and the Executive 
Branch puts a check on each other. So it is a checks and 
balance.
    So, I realize that some of my colleagues from the other 
side are raving about too much extension of over-reaching on 
the power of the President, or the Executive Branch of 
government. But there is a process in our Constitution if 
Members don't like the idea that the President over-reached 
himself in the issue of Libya, introduce a bill to prohibit the 
President from doing these kinds of things, because there is 
the balance, checks and balance system, as we currently have 
it.
    So, what have we produced? As I hear in some quarters, we 
now have a dysfunctional government, where there is absolute 
partisanship so much that I believe, Mr. Chairman, our people, 
the American people, are tired of this. We seem to have 
forgotten the word in the process--it is compromise. You don't 
have to compromise your principles, but at least compromise so 
that something gets done here in our national government, so 
something gets done or something gets moving for the needs of 
the American people.
    My question to our friends here--and now Mr. Mannina is 
smiling at me because I wanted to ask him a legal question--I 
know, until the second coming of the Savior, we are going to 
continue having legal questions about the Constitution, even in 
this issue that we are having here. I don't think there could 
ever be an agreement. But as--I sense, as a matter of policy, 
gentlemen, I think all our commercial fishing industry is 
asking for, as Mr. Markey had alluded to earlier, a seat on the 
table, or else you are going to be on the menu.
    I think the question is, are your voices heard? That is why 
you have Members in your given district representing your 
interest, hopefully to bring it to the attention of this 
committee, so that--to make sure that your interests are given 
every thoughtful consideration. So I--oh, man. I haven't even 
had a chance to ask my 50 questions, Mr. Chairman.
    [Laughter.]
    Mr. Faleomavaega. But I do want to say to our friends in 
the panel, Mr. Chairman, absolutely, your serious concerns 
about the whatever that we do here in the Congress should be 
seriously considered, especially the interests of our 
fishermen. And I want to assure you that I have a very soft 
part of my life in terms of the needs of our fishing industry 
in this country.
    Why do we have to import $9 billion to $10 billion worth of 
fish from foreign countries? Why? Because we don't produce 
enough fish domestically. What happens? We don't have fish 
farms. Our aquaculture development program is way out of whack. 
For some reason or another, when I visit other countries, Mr. 
Chairman, unbelievable how far advanced they have been in doing 
fish farms. We can't even do it for some reason. And I don't 
think this goes against the needs of our commercial fishermen 
in that regard.
    Mr. Chairman, thank you. I--thank you, gentlemen. I didn't 
ask my questions.
    Dr. Fleming. I thank the gentleman, the gentleman yields 
back.
    In the closing moments, I really have one more question, so 
I will--and I will certainly open it up for the panel for any 
last-minute random questions, as well. Before I ask my 
question, however, I do want to note that earlier this week 
nine Senators have asked Senate Commerce Committee to request 
oversight hearings on the National Ocean Policy. So certainly 
they are engaged and concerned, as well.
    Now, Mr. Mannina, before I ask you this question, I want to 
preface it with this statement. There is a difference between 
having input and having a seat at the table. And that is 
something I learned very quickly up here. I have seen over and 
over and over again where rules have been created, some kind of 
regulation promulgated, and there is a request for public 
input, and the public comes back and says, ``No, this is really 
dumb,'' overwhelming articulate arguments and so forth, and 
then agency goes on and does exactly what it wants to do. So, I 
am very cynical about that.
    And, Mr. Gibson, quite frankly, I think it is naive to 
believe that just having input is of any value. So the question 
is, do you have a seat at the table? Do stakeholders have a 
seat at the table? So that is what I want to ask you, Mr. 
Mannina. Under the Executive Order, can any stakeholder have a 
seat at the table of the regional planning bodies?
    Mr. Mannina. The Executive Order limits the ultimate 
decision-making authority to Federal agencies and to the 
National Ocean Council, with its at least 23 members. That is 
your governing body, and there is not--it is strictly a Federal 
body, sir. So, at the end of the day, no matter what input is 
provided, the Federal Government will make the decisions that 
it believes to be appropriate.
    And you raise an interesting question. Because when 
agencies issue regulations, it is typically through the 
Administrative Procedure Act, and there is public comment.
    Dr. Fleming. Right.
    Mr. Mannina. The agency receives it and decides what it 
believes is appropriate. Under the terms of the Executive 
Order, once the National Ocean Policy is promulgated, it says 
that agencies will implement whatever policies and regulations 
are necessary. The National Ocean Policy will tell the agency 
what to do. So, no matter what the public comment might be, the 
outcome is already determined through the National Ocean 
Policy. And that is why I suggested earlier that I think it is 
up to you gentlemen and your colleagues in the Congress to 
decide what kind of policy you wish, and how you want the 
administration to implement it. Because, as it exists now, the 
administration will move forward in the manner that it believes 
to be appropriate, and I think it is going to lead to, 
mercifully, much litigation, sir.
    Dr. Fleming. Right. Well, and again, what we are really 
talking about here is that the only decision-makers are from 
the Federal Government. And the only Federal Government 
decision-makers are from the Executive Branch.
    Now, the Constitution that I learned about in school when I 
took civics and history said that the Members of Congress 
represent their districts and their constituents, that we are 
the ones who represent the views and the attitudes of the 
American citizens. So we are totally shut out of this process, 
the so-called inputs of stakeholders, see, where there is 
actually no force from that whatsoever. And so, again, that 
begs the question: Is this not really all coming from the 
Executive Branch?
    So that is really kind of the thing I wanted to be sure--
did you have another comment, Mr. Mannina?
    Mr. Mannina. I was just going to say, Mr. Chairman, that 
the Supreme Court in 1996, in a case called Loving v. United 
States echoed your views, saying that the Constitution does lay 
out the roles and responsibilities of each branch, but that the 
congressional branch is--and I am not going to quote--the one 
most capable of responsible and deliberative law-making. Ill-
suited to that task is the presidency and the judiciary.
    And so, I think that if this actually becomes a 
constitutional fight, that there is a reasonable chance that, 
falling back on existing Supreme Court precedent, that this 
National Ocean Policy would be called into serious question.
    Dr. Fleming. Right. So, apart from the constitutional 
question, basically we have all the decisions made by the 
Federal Government, all of that in the Executive Branch, and 
that, indeed, it does have enforcement powers through the 
agency itself, not constitutionally, but in a--reality on the 
ground, that is the way it would work, until such time as the 
Supreme Court would step in.
    With that, I will yield to Mr. Sablan, if you have any 
further questions, sir.
    Mr. Sablan. Yes, just Mr. Mannina. We have only been part 
of the United States for, what, 34 years? You are telling me 
that this issue has existed because it is a constitutional 
question for over 200 years.
    Mr. Mannina. The issue of the separation----
    Mr. Sablan. Of----
    Mr. Mannina. I am sorry----
    Mr. Sablan. Presidential authority to do what President 
Reagan, President Bush, President Obama is doing, it is not an 
issue between the Congress and the President. It is a 
Presidential authority that has been used by presidents.
    Mr. Mannina. The President----
    Mr. Sablan. And the court hasn't said no.
    Mr. Mannina. Thank you, sir. The President does have the 
authority to issue regulations to implement statutes. But that 
authority is delegated from the Congress. And it is my view, 
sir, that the Congress has not delegated this authority to the 
President in this--for the National Ocean Policy.
    I was also interested in your citation to Executive Order 
12291, because in preparing for this presentation I read a 
number of legal commentaries, many of which focus on that 
Executive Order. And all the scholars asserted that they 
thought it was beyond the President's authority under the 
Constitution. Now, why that was not litigated is a matter that 
I will leave to my colleagues at the bar.
    But I would submit to you that if the National Ocean Policy 
moves forward, the stakes are so high that there will be 
litigation to try to define what the proper authorities are, 
unless and until the Congress does that in a manner it thinks 
appropriate.
    Mr. Sablan. Right. And I was just making that statement 
also, just to reflect that it is not just this President that 
is using this authority--and it is, again, President Reagan, 
President Bush--I guess I am old enough to remember President 
Reagan, too, but--and just one last question, Mr. Chairman, if 
I may.
    Mr. Gibson, are fishermen allowed to be members of the 
regional planning bodies, provided that they hold office at 
either the State, Tribal, or local level?
    Mr. Gibson. All of the people that sit on the South 
Atlantic Council on behalf of the States are fishermen. And 
those are the people that, it is my understanding, would 
represent us. I have enormous confidence in all of them, they 
are personal friends.
    Mr. Sablan. So there will be a mechanism for fishermen to 
participate in the planning process.
    Mr. Gibson. Yes. And there will also be subcommittees and 
advisory panels, and things like that created.
    Mr. Sablan. I can never say no to my--Mr. LeBlanc, please.
    Mr. LeBlanc. No, I appreciate that. And it is my 
understanding that--when the presentation or the proposal of 
having a representative of the Regional Fishery Management 
Councils on the RPBs was offered, the response was, ``Yes, 
provided that they are a Federal, State, or Tribal member of 
the council.''
    Mr. Sablan. Yes, right. No, I understand that.
    Mr. LeBlanc. So public citizens that are on the councils 
can't be on the RPBs.
    I would--just one quick comment, just to stretch Mr. 
Markey's analogy about tables and menus, if you are a sheep 
invited to a table of wolves, you quickly become on the menu, 
even if you have been offered a seat.
    Mr. Sablan. Well, that is a little complicated for this new 
American, Mr. LeBlanc.
    [Laughter.]
    Mr. Sablan. But Mr. Landry and I were talking one time. He 
is a sports fisherman. And he said, ``You have fish on your 
island?''
    And, of course, you know, we--I said, ``The only--you are 
welcome to come and fish on my island, I will bring you there, 
if you want, with--one condition is that you cannot catch and 
release a fish. Where I come from, you catch and eat a fish.'' 
So that is the deal we made.
    I mean this is important to us, sir. And while I have 
disagreements also with fisheries regional councils, again, I 
am not joking when I say that back home I grow up and I still 
today, if I choose to have three or four meals a week with 
fish, and I can have different assortments, and this is true, 
both the conservation--and we need to continue this, because it 
is part of our lives. It is not a business to us, sir. It is 
who we are. And this is how important this issue is to us.
    So, thank you, Mr. Chairman, for holding this important 
hearing. Thank you, everyone, for sharing your thoughts with 
us.
    Dr. Fleming. I thank the gentleman. The gentleman yields 
back. And I will add to that, that it is a fascinating 
discussion, even involving discussions of the Constitution, 
which makes it so interesting for us, and hopefully the panel 
and those who join us here today.
    The members of the Subcommittee may have additional 
questions for the witnesses, and we ask that you respond to 
these in writing. The hearing record will be open for 10 
business days to receive these responses.
    Finally, I want to thank Members and staff for their 
contributions to this hearing.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 11:12 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by Aaron Longton, F/V 
Goldeneye follows:]

                             F/V Goldeneye

                             Aaron Longton*

                              PO Box 1486*

                         Port Orford, OR 97465

March 19, 2012

    Thank you for the opportunity to provide testimony on this 
important issue.
    I am a commercial fisherman from Port Orford, Oregon. I've 
commercial fished for fifteen years for salmon, tuna, halibut, and 
groundfish. During my fishing career I have seen ocean issues neglected 
by the federal government and I believe it is time now to focus on an 
enormous asset for the United States, our oceans.
    Anyone who pays attention is well aware that the competing use for 
space in our ocean is increasing. In Oregon, we are dealing with what 
are essentially zoning issues for competing ocean uses for fishing, 
recreation, wind and wave energy, and marine reserves sites for areas 
closed to fishing. An additional emerging issue is offshore 
aquaculture. Without a comprehensive plan through a stakeholder-driven 
process, there is certainly going to be conflict between different 
stakeholder groups and a lack of a sensible resolution. The National 
Ocean Policy provides us with the tools to come to the table and solve 
this marine puzzle. We need funding for National Ocean Policy so this 
critical issue of competing uses of the ocean can be addressed.
    From a fisherman's standpoint, I worry that if we miss this 
opportunity to fund and implement National Ocean Policy and this 
opportunity to plan for inevitable change there will be big winner and 
big losers instead of an organized process that provides for all uses. 
All stakeholders, including fishermen, should take seriously this 
opportunity to represent their interests rather than be marginalized by 
nonparticipation or hasty top-down decisions.
    This accelerated demand for uses in the ocean shows no sign of 
slowing down. Now is the time to fund and implement National Ocean 
Policy to help the United States use our public resource, our ocean, 
effectively.
                                 ______
                                 
    [A statement submitted for the record by the Shinnecock 
Indian Nation follows:]

                        SHINNECOCK INDIAN NATION

                     Shinnecock Indian Reservation

                             P.O. Box 5006

                    Southampton, New York 11969-5006

             Phone (631) 283-6143 ext 1 Fax (631) 283-0751

             Written Testimony of SHINNECOCK INDIAN NATION

                   Submitted by Gerrod Smith, Trustee

                      Salvatore Ruggiero, Advisor

March 22, 2012

The Honorable Doc Hastings
Chairman
Committee on Natural Resources
U.S. House of Representatives
Washington, DC 20515

The Honorable Edward J. Markey
Ranking Member
Committee on Natural Resources
U.S. House of Representatives
Washington, DC 20515

The Honorable John Fleming
Chairman
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
U.S. House of Representatives
Washington, DC 20515

The Honorable Gregorio Sablan
Ranking Member
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
U.S. House of Representatives
Washington, DC 20515

    As an indigenous coastal community, the Shinnecock Indian Nation, a 
Federally Recognized Indian Tribe is concerned with issues regarding 
the ocean and its bounty. After all, we are surrounded by the great 
waters of Peconic Bay, Shinnecock Bay and the ever majestic Atlantic 
Ocean. These waters have sustained us since time immemorial.
    In fact it was our ancestors who welcomed the English settlers. One 
of the many things we shared was our method of whaling, and this 
collaboration helped create the first industrial revolution.
    The need for collaboration has never been greater. By 2030, the 
world will need at least 50 percent more food, 45 percent more energy 
and 30 percent more water, according to U.N. estimates, at a time when 
a changing environment is creating new limits to supply.
    The National Ocean Policy creates a platform in which all parties 
can share their specific concerns and collaboratively work together for 
the benefit of all. The National Ocean Policy creates a bottom up 
approach and not a top down bureaucratic exercise. It supports our 
coastal communities and improves government efficiency leading to 
better results for all interests. We need the National Ocean Policy in 
order to prepare our coastal communities and country for the future.
    The National Ocean Policy allows all concerns to have a voice at 
the table, including commercial and recreational fishermen. It does not 
exclude their participation; in fact it welcomes and needs their input 
in order to produce true and effective regional ocean planning 
partnerships. We need to work with fishermen to ensure a continued 
supply of safe seafood and to help protect healthy coastal communities.
    The National Ocean Policy can help create opportunities for 
fishermen to diversify in sustainable ways by encouraging responsible 
development of ocean and coastal resources like offshore renewable 
energy and shellfish production, and by making sure uncoordinated ocean 
development does not harm ecosystems, fisheries or cultural resources.
    We can choose to watch and observe and not be moved by the facts, 
or we can embrace the challenges that lie ahead. Let us join together 
to create better communities, a cleaner and safer future for our 
children, and the hope of what we all strive for--a peaceful and 
prosperous existence.

                                 <all>

</pre></body></html>
